1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14147
Non-Argument Calendar
D.C. Docket No. 2:15-cv-00328-JES-MRM
ABSOLUTE ACTIVIST VALUE
MASTER FUND LIMITED,
ABSOLUTE EAST WEST FUND
LIMITED, ABSOLUTE EAST
WEST MASTER FUND
LIMITED, ABSOLUTE
EUROPEAN CATALYST FUND
LIMITED, ABSOLUTE
GERMANY FUND LIMITED, et
al.,
Versus

Plaintiffs-Appellees,

SUSAN ELAINE DEVINE,
Defendant-Appellant,
LAIRD LILE,
as custodian f/b/o Isabella Devine, et al.,
Defendants.

2a

Appeals from the United States District Court
for the Middle District of Florida
(September 16, 2020)
Before WILSON, BRANCH, and ANDERSON,
Circuit Judges.
PER CURIAM:
The dust has settled in this money-laundering
case; all that’s left is a fight over fees. The appellees
are hedge funds that were allegedly defrauded in a
stock-manipulation scheme. They claimed that the
appellant Susan Devine illegally hid proceeds from
the scheme. The hedge funds thus sued Devine in
the Middle District of Florida, alleging a litany of
federal and state claims. The district court held that
the hedge funds were likely to prevail, so it entered a
temporary restraining order (TRO) that froze
Devine’s assets. Under Federal Rule of Civil
Procedure 65(c), it also ordered the hedge funds to
post a $10,000 bond to secure the TRO.
For various reasons, the district court
eventually dismissed the complaint and dissolved
the injunction. Devine then moved for an award of
fees and costs, citing (among other things) the
district court’s inherent power to sanction, Federal
Rule of Civil Procedure 37(d), and Federal Rule of
Civil Procedure 65(c). The

3a
district court, for the most part, declined to
award fees under these authorities. Devine
appeals, and we affirm.
I
We will start with inherent power. A federal
court has the inherent power to sanction a party.
Purchasing Power, LLC v. Bluestem Brands, Inc., 851
F.3d 1218, 1223 (11th Cir. 2017). Because these
powers are substantial, a court must exercise
“restraint and discretion” when invoking them. Id. To
justify a use of inherent power, “the party moving for
sanctions must show subjective bad faith.” Hyde v.
Irish, 962 F.3d 1306, 1310 (11th Cir. 2020). “This
standard can be met either (1) with direct evidence of
…subjective bad faith or (2) with evidence of conduct
so egregious that it could only be committed in bad
faith.” Id. (internal quotation mark omitted).
We review a court’s decision not to award a
sanction under its inherent power for abuse of
discretion. Id. “The application of an abuse-ofdiscretion review recognizes the range of possible
conclusions the trial judge may reach.” United
States v. Frazier, 387 F.3d 1244, 1259 (11th Cir.
2004) (en banc). “When employing an abuse-ofdiscretion standard, we must affirm unless we find
that the district court has made a clear error of
judgment, or has applied the wrong legal standard.”
Amlong & Amlong, P.A. v. Denny’s, Inc., 500 F.3d
1230, 1238 (11th Cir. 2007) (alteration accepted).

4a
Devine takes three issues with the district
court’s ruling. None hold merit.
She first says that the court applied the
wrong legal standard. In Devine’s eyes, the district
court did not recognize that a party can prove
subjective bad faith “with evidence of conduct so
egregious that it could only be committed in bad
faith.” Hyde, 962 F.3d at 1310 (internal quotation
mark omitted). Devine claims that the court
erroneously required direct evidence of subjective
bad faith. We disagree. The court correctly noted
that inherent-power sanctions turn on subjective bad
faith, but nothing in its order suggests that it
ignored the possibility that objective evidence could
be so great that it establishes subjective intent. To
the contrary, the court listed objective circumstances
that can show bad faith and then found that the
circumstances here did not reveal subjective bad
faith “by any stretch of the imagination.” It did not
apply an incorrect legal standard.
Next, Devine says that the court committed
error by failing to explain why it did not find bad
faith. But the court did just that. It cited examples of
what facts typically reveal bad faith—“fraud on the
Court, proof of forum shopping, unreasonable and
vexatious multiplying of proceedings, pursuing a case
barred by the statute of limitations, or purposely
vexatious behavior.” And it found that Devine’s
evidence did not bring this case to “[the] level” of bad
faith needed “to support the imposition of sanctions.”
A court need not discredit a party’s evidence

5a
line-by-line when holding that the party failed to
justify the need for sanctions. The court’s
analysis here was more than enough.
Last, Devine claims that, in any event, the
district court erred in failing to award sanctions. She
says that she established that the hedge funds sued
her—and continued their suit well after viability—to
harass her and pick off information for use in a
different matter. But even if her evidence could
support the finding she seeks, it does not rule out an
equally justified finding: that the hedge funds acted
earnestly. Given the district court’s extensive factual
findings and the accompanying record, we easily
conclude that the district court acted within its zone
of choice in finding that the evidence did not justify
the extraordinary use of inherent power. See Frazier,
387 F.3d at 1259.
II
Devine also challenges the court’s refusal to
award attorney’s fees connected with the hedge funds’
missed depositions. Federal Rule of Civil Procedure
37(d)(1)(A)(i) allows a court to sanction a party who
“fails, after being served with proper notice, to appear
for [its own] deposition.” If the court orders sanctions,
it “must require” the culpable party to pay
“reasonable expenses, including attorney’s fees . . .
unless the failure was substantially justified or other
circumstances make an award of expenses unjust.”
Fed. R. Civ. P. 37(d)(3). “The standard of review for
an appellate court in considering an appeal of
sanctions under Rule 37 is

6a
sharply limited to a search for an abuse of
discretion and a determination that the findings of
the trial court are fully supported by the record.”
Serra Chevrolet, Inc. v. Gen. Motors Corp., 446 F.3d
1137, 1146–47 (11th Cir. 2006) (alterations
accepted).
The hedge funds, before the court dismissed
their case, failed to sit for duly noticed depositions.
Devine requested about $28,000 in fees as a result.
The court here apparently exercised its discretion to
partially sanction the hedge funds for their failure to
attend their depositions: It granted Devine’s
reimbursement requests for some meals and for
“messenger services, the air travel, the taxi/Uber
expenses, and the hotel” expenses related to the
depositions. But the court refused to award all the
corresponding attorney’s fees. Devine says this was
error. It was not.
As the district court explained in both its fee
order and its order denying reconsideration, Devine
failed to provide specific support for her attorney’sfee requests. Instead, Devine submitted hundreds of
redacted billing entries, leaving the court to sift
through the entries to determine whether the
records supported her requested fees. Punting the
ball even farther down the field, Devine said that
the court could request an “in camera” hearing if it
wanted to sort through the unredacted entries
itself.
The district court rejected this minimal
effort. It declined to “carry the burden to aid
[Devine’s] collection efforts.” It also found that,
at any rate, the

7a
amounts requested “greatly exceeds any reasonable
attorney’s fees that would have been incurred for the
failure to appear.” Given the large bill, and given
that we, even on appeal, cannot make heads or tails
of Devine’s unspecific and redacted billing records,
we cannot hold that the district court abused its
discretion in declining to award more than it did. See
id.
III
Finally, the district court ordered the hedge
funds to post a $10,000 bond to secure the TRO. See
Fed. R. Civ. P. 65(c). “[A] prevailing defendant is
entitled to damages on the injunction bond unless
there is a good reason for not requiring the plaintiff
to pay in the particular case.” State of Ala. ex rel.
Siegelman v. U.S. E.P.A, 925 F.2d 385, 390 (11th
Cir. 1991). We review the district court’s decision
not to assess damages on an injunction bond for
abuse of discretion. Id. at 389. One factor a court
may consider in conducting its analysis is whether
the plaintiff sought the TRO in good faith, though
that is not dispositive. See id. at 390. Another is
whether an unforeseen change in the law occurred
after the plaintiff sued, “effectively prevent[ing] the
plaintiff from obtaining permanent injunctive
relief.” Id. at 391.
The district court did not abuse its discretion
here. For one, the court found that the hedge funds
sought the injunction in good faith. See id. at 390.
The record supports this finding, as do the district
court’s findings that the hedge funds were

8a
likely to succeed on their claims. For another, an
intervening change in the law— RJR Nabisco, Inc.
v. European Community, 579 U.S. ___, 136 S. Ct.
2090 (2016)—also supports the court’s decision.
Indeed, the court dissolved the injunction only after
this change in the law lowered the hedge funds’
likelihood of success to a minimal level. Given these
circumstances, we cannot say that the district court
abused its discretion in finding that there was good
reason not to assess damages on the bond.
AFFIRMED.

9a
APPENDIX B
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
FORT MYERS DIVISION
ABS O LU TE A C TI V IS T
VA LU E MASTER FUND
LIMITED, ABSOLUTE EAST
WEST FUND LIMITED,
ABSOLUTE EAST WEST
MASTER FUND LIMITED,
ABSOLUTE EUROPEAN
CATALYST FUND LIMITED,
ABSOLUTE GERMANY FUND
LIMITED, ABSOLUTE INDIA
FUND LIMITED, ABSOLUTE
OCTANE FUND LIMITED,
ABSOLUTE OCTANE
MASTER FUND LIMITED, and
ABSOLUTE RETURN
EUROPE FUND LIMITED,
Plaintiffs,
v.
Case No: 2:15-cv328-FtM 29MRM
SUSAN ELAINE DEVINE,
Defendant.
OPINION AND ORDER
This matter comes before the Court on
defendant's Motion for Reconsideration of Court's

10a
Opinion and Order Granting in Part and Denying in
Part Her Motion for Award of Costs and Fees (Doc.
#770) filed on August 29, 2019. Plaintiff
filed
a
Memorandum in Opposition (Doc. #774) on
September 12, 2019. Also before the Court is
defendant’s Amended Motion for Leave to Submit
Attorney Billing records for In Camera Review (Doc.
#772) and plaintiffs’ Memorandum in Opposition
(Doc. #774).
On August 1, 2019, the Court issued an Opinion
and Order (Doc. #761) granting in part and denying in
part defendant’s Motion for Award of Costs and Fees.
The Court granted taxable costs and some non-taxable
expenses pursuant to Fed. R. Civ. P. 37(d), but no
attorney fees. Under Rule 60(b),
On motion and just terms, the court may
relieve a party or its legal representative
from a final judgment, order, or
proceeding for the following reasons:
(1) mistake, inadvertence, surprise, or
excusable neglect;
(2) newly discovered evidence that, with
reasonable diligence, could not have been
discovered in time to move for a new trial
under Rule 59(b);
(3) fraud (whether previously called
intrinsic or extrinsic), misrepresentation,
or misconduct by an opposing party;
(4) the judgment is void;

11a
(5) the judgment has been
satisfied, released, or discharged; it
is based on an earlier judgment
that has been reversed or vacated;
or applying it prospectively is no
longer equitable; or
(6) any other reason that justifies relief.
Fed. R. Civ. P. 60(b). Defendant appears to rely solely
on Rule 60(b)(6), and the Court finds that (1) through
(5) do not apply, except as to the one issue of ‘newly
discovered evidence.’ “Federal courts grant relief
under Rule 60(b)(6) only for extraordinary
circumstances.” Frederick v. Kirby Tankships, Inc.,
205 F.3d 1277, 1288 (11th Cir. 2000) (citation
omitted). “Consequently, relief under Rule 60(b)(6)
requires showing ‘extraordinary circumstances’
justifying the reopening of a final judgment.” Arthur
v. Thomas, 739 F.3d 611, 628 (11th Cir. 2014)
(citations and quotation marks omitted).“The courts
have delineated three major grounds justifying
reconsideration: (1) an intervening change in controlling
law; (2) the availability of new evidence; (3) the need to
correct clear error or prevent manifest injustice.”
Sussman v. Salem, Saxon & Nielsen, P.A., 153 F.R.D.
689, 694 (M.D. Fla. 1994). “It is well established in this
circuit that ‘[a]dditional facts and arguments that
should have been raised in the first instance are not
appropriate grounds for a motion for reconsideration.’”
Wallace v. Holder, 846 F. Supp. 2d 1245, 1248 (N.D.
Ala. 2012) (citation omitted).Court opinions are “not

12a
intended as mere first drafts, subject to revision and
reconsideration at a litigant's pleasure.” Quaker Alloy
Casting Co. v. Gulfco Indus., Inc., 123 F.R.D. 282, 288
(N.D. Ill. 1988).
Defendant argues that it would be manifestly unjust
to deny her: (1) the attorney fees pursuant to Rule
37(d) attributable exclusively to plaintiffs’ failure to
appear at the depositions; (2) an award pursuant to
the Court’s inherent authority for the costs and
attorneys’ fees; and (3) an award for damages against
the $10,000 TRO Bond.
1. Attorney Fees under Rule 37(d)
The Court found that defendant was entitled
to fees and expenses as a sanction pursuant to Fed.
R. Civ. P. 37(d) for the failure of plaintiff’s counsel to
attend properly noticed depositions. The Court noted
that “Defendant incurred costs in the amount of
$28,200.86 as a result of plaintiffs’ failure to attend
the depositions. (Doc. #742, ¶ 28.)” (Doc. #761, p. 26.)
However, defendant did not provide any redacted
billing statements to support this specific amount, and
Matthew D. Lee’s original Declaration instead offered
“[t]o the extent that the Court wishes to examine Ms.
Devine’s counsels’ unredacted billing records to verify
that the sums cited herein are accurate, Ms. Devine
will submit those records to the Court for in camera
review.” (Doc. #714, p. 7 n.2.) As a result, the Court
allowed only $886.60 in expenses because it was “not
inclined to carry the burden” of sifting through all the
billable hours to determine which ones were
attributable to the failure to attend the depositions.
Defendant argues that she “incurred – at a
minimum - $3,750 in fees charged by her counsel for

13a
attorney time that is attributable exclusively” to the
failure to appear. (Doc. #770, p. 5.) Defendant goes on
to state that “her attorneys spent at least eleven
additional hours preparing a motion to compel.”
(Id.) Defendant argues that the records establish that
she “incurred at least $8,843 in fees”, and therefore
reconsideration is warranted. (Id., p. 6.) Defendant’s
use of “at a minimum” and “at least” , and only now
pointing out specific entries, see Doc. #770, p. 5 n. 4-5,
reflects just how impossible it was for the Court to
verify the hours to determine the reasonableness of the
fees upon review of the original motion and reply. The
Court declines to revisit the issue because there was
no error, and it would be unjust to give defendant a
second bite at the apple to justify the amount of fees.
2. Inherent Authority
The Court declined to impose sanctions
pursuant to its inherent power to do so because
“[a]lthough defendant continually raises this theory of
bad faith and collusion, there is insufficient
information to support the imposition of sanctions,
even if plaintiffs were working with the Swiss
government or collecting data for discovery in related
cases.” (Doc. #761, p. 29.) The Court found that this
case did not rise to the level of Purchasing Power1 “by
any stretch of the imagination.” (Id.)
Defendant argues that the Court incorrectly
applied the law because as the litigation progressed,
it at least became substantially motivated by
plaintiffs’ bad faith. Defendant argues that the Court
failed to consider the evidence in the reply regarding
Purchasing Power, LLC v. Bluestem Brands, Inc., 851 F.3d
1218, 1223 (11th Cir. 2017).
1

14a
the undisclosed existence of the private Swiss
criminal complaint. Defendant cited to the Report of
Lawrence J. Fox, a former chairman of the ABA
Standing Committee on Ethics and Professional
Responsibility, concluding that the concealment of
the criminal complaint violated several ethics rules
and effectuated a fraud on Defendant and the Court.
(Doc. #770, pp. 11-12.) As additional proof, defendant
points out plaintiffs’ contrary positions in this case
from the criminal complaint filed in Switzerland.
Defendant argues that plaintiffs did engage in
“purposely vexation behavior” towards her, and
specifically after the Court’s 2017 rulings despite the
Court’s denial of sanctions. (Id., p. 13.) The Court did
in fact “assess that compelling evidence” presented
by defendant, Doc. #770, p. 10, and simply disagreed
that it was sufficient. This is not tantamount to an
incorrect application of the law. Reconsideration is
denied.
Defendant also submits “newly available
evidence” supporting bad faith. (Id., pp. 16-17.)
Defendant is admittedly not one of the individuals
charged in a bill of indictment connected to the 135
Proceeding, but she is considered a third party with
limited rights. Defendant argues that her assets remain
restrained as a result of the indictment and will remain
frozen while the Proceeding is pending before the Swiss
Court of Criminal Affairs. On February 18, 2019,
months before the Court issued its Opinion and Order,
the Attorney General of Switzerland issue a note in the
135 Proceeding that the private criminal complaint
initiated by plaintiffs would be transferred to another

15a
proceeding under a different Proceeding number but the
Attorney General did not inform
defendant’s Swiss counsel of same. (Doc. #770, pp.
17-18.) Defendant argues that it was not until April
2019, when her Swiss counsel learned of the new
1255 Proceeding, which has been suspended.
Defendant’s Swiss counsel has appealed the new
Proceeding which targets defendant as a result of the
discovery in this case. Defendant argues that this
‘newly available evidence’ shows that the collusion with
the Attorney General of Switzerland is no longer
conjecture. (Id., p. 20.) None of this information
constitutes new evidence, and does not otherwise
change the conclusion. The Court finds it remains
insufficient evidence to justify sanctions in this case.
The proceedings in Switzerland cannot form the basis
for sanctions in this case. The request for
reconsideration is granted to the extent the Court
considered the ‘new evidence’, but the request is
otherwise denied.
3. The TRO Bond
On July 1, 2015, in a 69-page Opinion and
Order (Doc. #10), the Court granted a temporary
restraining order against defendant and directed
plaintiffs to post a $10,000 bond. After several
continuances, the Court consolidated the preliminary
injunction hearing with the trial on the merits. (Doc.
#83.) The Court modified the temporary restraining
order several times to release funds as required, and on
April 19, 2016, the Court denied a motion to dissolve
the injunction. (Doc. #368.) Defendant filed an
interlocutory appeal from this Opinion and Order.
(Doc. #383.) The appeal was stayed pending a decision

16a
on a motion for reconsideration, which was denied as
moot on July 25, 2017, after the dismissal of federal
claims. (Doc. #574.) The injunction was dissolved
because the Court found that plaintiffs were
requesting monetary damages on the remaining state
law claim for unjust enrichment, and Florida law
precludes the injunctive relief to preserve the ultimate
availability of otherwise unrestricted fund. (Doc. #575,
pp. 15-16.) The Court found that the commingling of
funds in accounts and difficulty in tracing assets meant
that plaintiffs were substantially unlikely to prevail on
the imposition of a constructive trust. The injunction
was dissolved. (Id., pp. 17-18.) The case and the
interlocutory appeal were voluntarily dismissed.
(Docs. ## 681, 682.)
Defendant points out that good faith in seeking
the injunction is not sufficient to refuse damages on a
bond under State of Ala. ex rel. Siegelman v. U.S.
E.P.A., 925 F.2d 385, 390 (11th Cir. 1991). The case also
stated that “good faith is a factor that should only be
noteworthy when absent or when coupled with another
basis for discharge.” Id. An award of damages pursuant
to an injunction bond rests in the sound discretion of the
district court. City of Riviera Beach v. Lozman, 672 F.
App'x 892, 895 (11th Cir. 2016). “To recover against an
injunction bond, a party must prove that it was
wrongfully enjoined and that its damages were
proximately caused by the erroneously issued
injunction.” Milan Exp., Inc. v. Averitt Exp., Inc., 254
F.3d 966, 981 (11th Cir. 2001).
The Court found that the injunction was
properly granted and that it was timely dissolved
because the commingling of funds made the

17a
likelihood of success minimal. Therefore, the Court
found good reason for not requiring damages to be
paid by plaintiffs. (Doc. #761, p. 33.) As there is no
finding that the injunction was improper or
erroneously issued, the Court stands by the decision
to deny the damages. Reconsideration is denied.
Accordingly, it is hereby
ORDERED:
1. Defendant’s Motion for Leave to Submit
Attorney Billing records for In Camera
Review (Doc. #771) is DENIED as moot.
2. Defendant’s Amended Motion for Leave to
Submit Attorney Billing records for In
Camera Review (Doc. #772) is DENIED as
moot.
3. Defendant's Motion for Reconsideration of
Court's Opinion and Order Granting in
Part and Denying in Part Her Motion for
Award of Costs and Fees (Doc. #770) is
GRANTED to the extent reconsidered
herein, and otherwise DENIED on the
merits.
DONE and ORDERED at Fort Myers,
Florida, this 23rd day of September, 2019.
_________________________
JOHN E. STEELE
SENIOR UNITED
STATES DISTRICT
JUDGE
Copies:
Counsel of Record

18a
APPENDIX C
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
FORT MYERS DIVISION
ABS O LU TE A C TI V IS T
VA LU E MASTER FUND
LIMITED, ABSOLUTE EAST
WEST FUND LIMITED,
ABSOLUTE EAST WEST
MASTER FUND LIMITED,
ABSOLUTE EUROPEAN
CATALYST FUND LIMITED,
ABSOLUTE GERMANY FUND
LIMITED, ABSOLUTE INDIA
FUND LIMITED, ABSOLUTE
OCTANE FUND LIMITED,
ABSOLUTE OCTANE
MASTER FUND LIMITED, and
ABSOLUTE RETURN
EUROPE FUND LIMITED,
Plaintiffs,
v.
Case No: 2:15-cv328-FtM 29MRM
SUSAN ELAINE DEVINE,
Defendant.
OPINION AND ORDER

19a
This matter comes before the Court on
defendant's Motion for Award of Costs and Fees (Doc.
#713 and Doc. #7411) filed on July 25, 2018. Also filed
are the Declaration of Matthew D. Lee (Doc. #714)
and a proposed Bill of Costs (Doc. #715) in the
amount of $104,725.37. Plaintiffs filed an Opposition
(Doc. #732) on August 22, 2018, along with the
Declaration of David Spears in Support (Doc. #733).
Defendant filed a Reply in Support (Doc. #750) of her
motion and another Declaration (Doc. #751) with
exhibits on October 2, 2018. Plaintiffs filed a Sur-Reply
(Doc. #752), and a Declaration of Christopher Dysard
(Doc. #753) on October 23, 2018. The parties were
granted leave to file the motion, response, and
supporting declarations under seal. (Docs. ## 728, 729,
738, 739, 741, 742.)
I. Procedural History
The Court briefly summarizes the relevant
portions of the lengthy and contentious procedural
history of this case as follows:
The case was initiated on June 1, 2015, by a
Complaint (Doc. #2) and an Ex Parte Motion (Doc. #3)
filed under seal. (Doc. #7.) The six-count, 144-page
Complaint alleged a money laundering enterprise to
conceal fraudulently obtained funds taken in a penny
stock scheme orchestrated by defendant Susan Devine
and her nonparty former husband Florian Homm.
On July 1, 2015, the Court entered a 69-page
Opinion and Order (Doc. #10) granting plaintiffs an ex
parte Temporary Restraining Order enjoining defendant
from transferring, converting, withdrawing or otherwise
1

A public version and a sealed version of the motion were filed.

20a
disposing of any money or other assets. Defendant was
also enjoined from the destruction or disposal of her
financial documents, and limited discovery was
permitted. Plaintiffs were required to post a $10,000
bond, and a preliminary injunction hearing was set. The
bond monies were deposited with the Clerk of Court on
July 7, 2015. (Doc. #15.)
The Temporary Restraining Order was extended
through July 30, 2015 (Doc. #55), and then through
October 1, 2015 (Doc. #67), and was modified and
extended on August 3, 2015 (Doc. #68) to exclude
certain assets and August 24, 2015 (Doc. #76) to
release sums to pay expenses. On September 17,
2015, the Court granted the parties’ joint request to
consolidate the preliminary injunction hearing with
the trial on the merits (Doc. #83). On September 25,
2015, a Case Management and Scheduling Order
(Doc. #89) was entered. Laird Lile, Orion Corporate
and Trust Services, Ltd., and Conrad Homm were
allowed to intervene for the limited purpose of
protecting their interests in the assets described in
their motions. (Doc. #156.)
On January 14, 2016, plaintiffs filed an
Amended Complaint (Doc. #196) to correct certain
pleading deficiencies. The 147-page Amended
Complaint alleged two federal RICO claims (Counts I
and II), a state RICO claim and a Florida Civil
Remedies for Criminal Activities claim (Counts III
and IV), a state law unjust enrichment claim (Count
V), and a state law constructive trust claim (Count
VI).
On February 1, 2016, the temporary restraining
order was further amended to allow defendant to pay

21a
for the maintenance and upkeep of foreign properties
from foreign accounts, and to allow the opening of
accounts to accept rental income for entities with
rental income. (Doc. #230.) On February 2, 2016, the
temporary restraining order was modified to allow a
release of funds for the reasonable living and
educational expenses and attorneys’ fees for Isabella
Devine and Conrad Homm. (Doc. #233.) On March 21,
2016, a modification was granted to allow defendant to
rent out a villa in Spain with the rental income to be
reported to plaintiffs on a monthly basis. (Doc. #333.)
On April 19, 2016, the Court denied
defendant’s request to dissolve the Temporary
Restraining Order, leaving the issue of the preliminary
injunction for trial. (Doc. #368.) Defendant filed a
Notice of Interlocutory Appeal (Doc. #383), but the
appeal was later voluntarily dismissed. (Doc. #601.)
On February 8, 2017, the Court granted in
part defendant’s Motion to Dismiss Amended
Complaint. (Doc. #521.) The Court
dismissed
Counts I and II (the federal RICO counts) and the
Florida RICO and Florida Civil Remedies for
Criminal Activities claims (Count III and IV) without
prejudice because they did not set forth plausible
claims that the wrongful acts were committed
domestically and not abroad. (Id., p. 56.) Count VI was
dismissed with prejudice because constructive trust is
not a freestanding cause of action but a remedy to the
unjust enrichment claim. (Id., p. 62.) The motion was
denied as to the unjust enrichment claim. (Id., p. 63.)
The Court granted plaintiffs leave to file a second
amended complaint. (Id., p. 65.)

22a
On February 28, 2017, plaintiffs notified the
Court that they were choosing not to file a Second
Amended Complaint (Doc. #527), leaving only Count V
for unjust enrichment as the operative claim.
Defendant moved to dissolve the Temporary
Restraining Order as not being justified by the unjust
enrichment claim, the only remaining claim. (Doc.
#530.) On May 8, 2017, the Court directed plaintiffs
to file a Second Amended Complaint which included
only the remaining state claim of unjust enrichment
without the superfluous allegations. (Doc. #559.) On
May 15, 2017, the Second Amended Complaint (Doc.
#560) was filed.
On July 25, 2017, the Court issued an Opinion
and Order (Doc. #575) granting defendant’s motion to
dissolve the Temporary Restraining Order. Plaintiffs
filed an interlocutory appeal (Doc. #576), which on
February 20, 2018, was deemed voluntarily dismissed
by plaintiffs. (Doc. #681.) On February 14, 2018,
plaintiffs filed a Notice of Voluntary Dismissal
Without Prejudice Pursuant to Rule 41(a)(1)(A)(i)
(Doc. #680).
On February 21, 2018, the Court entered an
Order (Doc. #682) dismissing the case without
prejudice pursuant to the Notice of Voluntary
Dismissal Without prejudice (Doc. #680), and
directed the Clerk to close the case.
On April 20, 2018, defendant filed a Motion for
Entry of Partial Final Judgment (Doc. #685). This
Motion sought entry of a final judgment in favor of
defendant as to the counts of the Amended
Complaint which had been dismissed on February 8,
2017. After extensive briefing, on July 11, 2018, the

23a
Court directed judgment in favor of defendant and
against plaintiffs dismissing Counts I, II, III, IV, and
VI with prejudice. (Doc. #707.) Judgment (Doc. #708)
was issued on July 11, 2018.
Defendant now seeks an award of costs
pursuant to Federal Rule of Civil Procedure 54(d) as
a prevailing party; costs and attorney’s fees pursuant
to Fed. R. Civ. P. 37(d), the Court’s inherent
authority, and the Florida RICO Act; and damages
pursuant to Fed. R. Civ. P. 65 against the temporary
restraining order bond. The Court discusses each
below.
II. Taxable Costs
Defendant seeks taxable costs of either
$105,425.37 (Doc. #713, p. 11; Doc. #714, p. 2 ¶ 4) or
$104,725.37 (Bill of Costs, p. 1) pursuant to Fed. R. Civ.
P. 54(d) as the prevailing party in this case. A
“prevailing party” is entitled to recover costs other
than attorney fees as a matter of course unless a
federal statute, the Federal Rules, or a court order
provide otherwise. Fed. R. Civ. P. 54(d)(1). The costs
which may be taxed in favor of a prevailing party are
set forth in 28 U.S.C. § 1920. Plaintiffs object to
many of the costs, discussed below, and seek to
reduce taxable costs to $3,264.50. (Doc. #732, p. 29.)
Plaintiffs have provided a chart (Doc. #753-10) of the
requested costs and their objections.
A. Costs Incurred After February 28, 2017
Plaintiffs argue the Court should deny all costs
incurred after February 28, 2017, the date plaintiffs
filed their Notice of election to pursue only the unjust
enrichment count. (Doc. #527.) Plaintiffs implicitly
acknowledge that defendant became the prevailing

24a
party as to the five counts plaintiffs decided not to
pursue as of this date. Plaintiffs argue, however, that
their subsequent February 14, 2018 voluntary
dismissal of the unjust enrichment count pursuant to
Rule 41(a)(1)(A)(i) did not create prevailing party
status as to that last remaining count because a
voluntary dismissal is not a resolution on the merits.
Since defendant was not a prevailing party as to the
unjust enrichment count, plaintiffs argue, it would be
inequitable to tax any costs incurred between these
dates since these costs could only relate to the unjust
enrichment claim. (Doc. #732, pp. 30-32.) Plaintiffs
compute these impermissible costs as totaling
$12,712.33. (Doc. #753-10, p. 8.) The Court rejects
this position for several reasons.
It is certainly well-settled that “[p]revailing
parties are entitled to receive costs under Fed. R. Civ.
P. 54(d)”, U.S. EEOC v. W&O, Inc., 213 F.3d 600, 620
(11th Cir. 2000), while non-prevailing parties cannot
be awarded such costs, Lipscher v. LRP Publ’ns, Inc.,
266 F.3d 1305, 1321 (11th Cir. 2001). But prevailing
party status relates to the case, not just individual
counts within the federal case. Thus, a party may be
considered a “prevailing party” under Rule 54(d)
without prevailing on all counts. Head v. Medford, 62
F.3d 351, 354-55 (11th Cir. 1995); Lipscher, 266 F.3d
at 1321. To be a prevailing party,
[a] party need not prevail on all issues to
justify a full award of costs, however.
Usually the litigant in whose favor
judgment is rendered is the prevailing party
for purposes of rule 54(d).... A party who has
obtained some relief usually will be

25a
regarded as the prevailing party even
though he has not sustained all his claims....
10 Wright & Miller, supra, § 2667, p. 129–
130. Cases from this and other circuits
consistently support shifting costs if the
prevailing party obtains judgment on even a
fraction of the claims advanced.
Medford, 62 F.3d at 354-55 (quoting United States v.
Mitchell, 580 F.2d 789, 793–94 (5th Cir. 1978)
(citations omitted)). Ordinarily, to be a prevailing
party requires a judgment or some “judicial
imprimatur” that prompts a material alteration in
the legal relationship of the parties. Buckhannon Bd.
& Care Home, Inc. v. W. Va. Dep’t of Health &
Human Res., 532 U.S. 598, 605 (2001).
The five unpursued counts were dismissed with
leave to amend on February 8, 2017; plaintiffs decided
not to re-file such counts on February 28, 2017; and an
order and a judgment were entered on July 11, 2018
dismissing the five counts with prejudice and the
unjust enrichment count in the Second Amended
Complaint without prejudice. (Docs. ## 707, 708.)
Defendant thus became the prevailing party in the case
as of July 11, 2018, when defendant succeeded on
significant claims and there was a change in the legal
relationship between the parties through a resulting
enforceable judgment. Farrar v. Hobby, 506 U.S. 103,
109, 111 (1992). The Court will not exclude costs
simply because they were incurred after February
28, 2017.
B. Items of Taxable Costs
Defendant submitted a proposed Bill of Costs
(Doc. #715) of $104,725.37. It is undisputed that the

26a
Court may tax six categories of litigation expenses as
costs:
(1) Fees of the clerk and marshal;
(2) Fees for printed or electronically recorded
transcripts necessarily obtained for use in
the case;
(3) Fees and disbursements for printing and
witnesses;
(4) Fees for exemplification and the costs of
making copies of any materials where the
copies are necessarily obtained for use in the
case;
(5) Docket fees under section 1923 of this
title;
(6) Compensation of court appointed experts,
compensation of interpreters, and salaries,
fees, expenses, and costs of special
interpretation services under section 1828 of
this title.
28 U.S.C. § 1920. All parties agree that taxable costs
are limited to those costs enumerated in § 1920. The
Court addresses each category of costs sought by
defendant.
(1) Filing and Docket Fees
Pursuant to 28 U.S.C. § 1923, the Bill of Costs
seeks the costs of docket fees associated with
plaintiffs’ discontinuance of the civil action ($5.00)

27a
and the fee for filing a motion for judgment ($5.00).
(Doc. #715, p. 1, and Exh. 6.) These are taxable costs,
28 U.S.C. § 1920(1), and the $10.00 will be taxed.
The Bill of Costs also seeks the cost of the $505
appellate filing fee paid on May 20, 2016, in
conjunction with defendant’s interlocutory Notice of
Appeal (Doc. #383) from the Opinion and Order (Doc.
#368) denying defendant’s Motion to Dissolve the
Temporary Restraining Order. (Doc. #715, p. 1, and
Exh. 1.) This appeal was later voluntarily dismissed
by defendant. (Doc. #601.) Since defendant was not
the prevailing party in this appellate proceeding, the
Court will not allow the appellate filing fee as a
taxable cost.
(2) Service of Process and Subpoena
Costs
The Bill of Costs seeks a total of $715.00 for service
of process fees by four private process servers. (Doc.
#715, p. 1, and Exh. 5.) Private process server fees,
including travel, service, and other expenses, are
taxable under 28 U.S.C. § 1920(1), and may be taxed to
the limits allowed in 28 U.S.C. § 1921. EEOC v. W & O,
Inc., 213 F.3d at 624. Under § 1921(b), the Attorney
General sets the amounts of the fees by regulation. In
28 C.F.R. § 0.114(a)(3), the fee for personal service of
process is $65 per hour or portion thereof, plus travel
costs and other out-of-pocket expenses. Defendant has
not provided any information establishing the time it
took to serve process, or the travel costs or expenses.
Accordingly, the Court will tax $260 ($65 for each of
the four process servers).
(3) Transcripts of Court Hearings and
Depositions

28a
The Bill of Costs seeks to tax the costs of court
hearing transcripts and deposition transcripts in the
total amount of $16,532.74. (Doc. #715, p. 1 and Exh.
2.) These Costs include transcripts of four court
status conferences and deposition costs related to
eleven witnesses.
“Expenses for ‘the stenographic transcript
necessarily obtained for use in the case’ are
permitted by § 1920[2].” Maris Distrib. Co. v.
Anheuser-Busch, Inc., 302 F.3d 1207, 1225 (11th Cir.
2002). This may include depositions of witnesses
identified for discovery purposes. Maris Distrib. Co.,
302 F.3d at 1225. But “[w]here the deposition costs
were merely incurred for convenience, to aid in
thorough preparation, or for purposes of investigation
only, the costs are not recoverable.” W&O, Inc., 213
F.3d at 620 (citation omitted). The costs of
transcripts of court proceedings may be taxed under
the same standard.
(a) Court Proceedings
Defendant seeks the costs of transcripts of
four status conferences, totaling $715.05. (Doc. #715,
Exhibit 2.) Plaintiffs seek to exclude the costs of three
of the four status conferences because the conferences
were primarily about scheduling and not substantive
matters. (Doc. #732, p. 32.) The July 20, 2015, status
conference included discussions about hammering out
a protective order for review by the Magistrate Judge,
jurisdictional issues that may be raised, and
scheduling. (Doc. #39.) The Court agrees this transcript
was not necessary for use in the case and the costs will
be denied. The July 28, 2015, status conference was
extensive and discussed the financials of defendant and

29a
her need for a release of funds for living expenses.
(Doc. #57.) The Court concludes that this transcript
was necessarily obtained for use in the case, and
therefore the cost of this transcript ($355.25) will be
taxed. Plaintiffs do not challenge the cost of the July
30, 2015, status conference, and therefore $173.70
will be taxed. The transcript of a short status
conference conducted on October 1, 2015 was not
necessarily obtained for use in the case, but rather
was for the convenience of counsel. This cost will not
be taxed.
In sum, the Court will tax $495.95 ($322.25 plus
$173.70) for the costs of the necessary transcripts of the
court proceedings.
(b) Deposition Costs
Defendant seeks to tax costs of $15,817.69 for
deposition transcripts and/or associated costs for the
depositions of eleven witnesses. (Doc. #715, Exh. 2.)
Plaintiffs seek to eliminate the deposition costs
associated with rough drafts, litigation packages,
Optical
Character
Recognition
(OCR)
costs,
processing, shipping, delivery, handling, color
exhibits, translation synchronization, and expedited
transcripts. (Doc. #732, pp. 32-33.)
Defendant must submit a request which enables
the Court to determine which costs are properly taxed.
Loranger v. Stierheim, 10 F.3d 776, 784 (11th Cir.
1994). Taxing the costs of expedited transcripts is
generally frowned upon, but may be permissible under
the proper circumstances if necessary for use in the
case. Maris Distrib. Co., 302 F.3d at 1226. Where
additional expenses such as condensed transcripts,
electronic transcripts, CD copies, exhibits, and shipping

30a
“are only for the convenience of counsel, they are not
reimbursable.” Woods v. Deangelo Marine Exhaust
Inc., No. 08-81579-CIV, 2010 WL 4116571, at *8 (S.D.
Fla. Sept. 27, 2010), report and recommendation
adopted, No. 08-81579-CIV-HURLEY, 2010 WL
4102939 (S.D. Fla. Oct. 18, 2010) (collecting cases).
“[W]hen a party notices a deposition to be recorded by
nonstenographic means, or by both stenographic and
nonstenographic means, and no objection is raised at
that time by the other party to the method of
recordation”, costs may be taxed (citing Fed. R. Civ. P.
30(b))). Morrison v. Reichhold Chems., Inc., 97 F.3d
460, 464-65 (11th Cir. 1996). Video must still be
“necessarily obtained” for use in the case in order to
be taxable. Morrison, 97 F.3d at 465.
The Court finds that defendant has not shown
that the costs of expedited transcripts were necessary
for the witnesses identified in this case. The Court
also finds that defendant has not justified the
extraneous costs associated with the individual
depositions. Therefore, the litigation packages, rough
drafts, shipping and handling costs, and other
miscellaneous deposition costs will be eliminated.
Plaintiffs argue that defendant cannot recover
costs for both a transcript and a video of the same
deposition, as requested for Glenn E. Kennedy, Karen
Neptune, and her own deposition, without justifying
the need for both. (Doc. #732, p. 33.) Plaintiffs do not
point to any contemporary objection to the video at the
time of these depositions, however, both versions were
not necessary. Therefore, the cost of one or the other
will be permitted as to Kennedy and Neptune, but not

31a
both. The Court will allow the higher amount of the
two options.
Plaintiffs argue that the cost of exhibits
used for a deposition taken by defendant cannot be
taxed. (Doc. #732, p. 33.) The Court finds that
exhibits associated with plaintiff’s corporate designees
should be permitted, however the remaining exhibits
are deemed to have been for the convenience of counsel.
Plaintiffs further argue that defendant noticed
depositions that were improper and intended to
circumvent a pending motion for protective order,
knowing full well that plaintiff entities would not
appear. (Id., p. 32.) As discussed below in relation to
the request for attorney fees and expenses under Rule
37(d), the Court disagrees with the position of
plaintiffs. The following deposition costs will be
allowed:
Witness

Deposition Description of Amount
Job Date
Costs Allowed

Karen Neptune

1/29/16

Karen Neptune
Brian Escalante
Guillermo
Sampere
Ronald Tompkins

1/29/16
3/14/16
5/25/16
5/22/17
Ronald Tompkins 5/23/17
Isabella Devine
7/19/16
Rep., AAVMFL
1/24/18

Certified
$197.60
Transcript, and
minimal
Exhibits,
Video -DVD
Pages
Virtual
participant
Transcript
services
Transcript
services
Certified
transcript
Videography

$ 00.00
$505.05
$195.00
$172.35
$914.95
$280.00
$360.00

32a
Rep., Absolute
India

1/26/18

Transcript
services

$125.00

Rep., Absolute
VMFL

1/24/18

Certificate
appearance,
on
record,
and handling

$207.00

Rep., Absolute
Ger.

1/25/18

$155.00

Susan Devine
Susan Devine
Susan Devine
Glen Kennedy
Glen Kennedy
TOTAL:

7/25/17
7/29/15
7/29/15
12/1/17
12/1/17

Certificate
appearance
Transcript
services
Certified
transcript
Video
Transcript
services
Videography

$2,529.25
$1,042.80
$ 00.00
$1,990.00
$ 00.00
$8,674.00

The Court will allow a total of $8,674.00 for
depositions after reductions.
(4) Witnesses Fees
The Bill of Costs seeks $180.00 in witness
fees for four witnesses. (Doc. #715, p. 1 and Exh. 5.)
Witness fess may be taxed as costs under 28 U.S.C. §
1920(3). Under 28 U.S.C. § 1821, a witness attending
court or a deposition shall be paid an attendance fee
of $40 per day, plus other allowed travel expenses,
including mileage. 28 U.S.C. § 1821(b). The Court
may not tax an amount in excess of that allowed by §
1821. Morrison, 97 F.3d at 463. No travel expenses or
mileage is identified, and two of the requested
witness fees exceed the rate of $40 per day.
Therefore, the total will be lowered from the
requested $180 to $160.00 ($40 per witness).

33a
(5) Document Copying
The Bill of Costs seeks $86,782.63 for copying
documents necessarily obtained for use in the case.
(Doc. #715, p. 1 and Exhibit 3.) Supporting
documentation is contained in Exhibits 24 of the Bill
of Costs.
Copying costs are taxable when “the costs of
making copies of any materials where the copies are
necessarily obtained for use in the case.” 28 U.S.C.
1920(4). “[I]n evaluating copying costs, the court
should consider whether the prevailing party could
have reasonably believed that it was necessary to
copy the papers at issue.” W&O, Inc., 213 F.3d at
623.
The Bill of Costs divides the copying costs into
two categories: traditional paper copying and ediscovery copying.
(a)
Traditional Paper Copying
Defendant requests $5,584.49 in paper copying
costs. (Doc. #715, Exhibit 3.) Plaintiffs argue that
none of these copying costs should be allowed
because no explanation has been provided as to why
the costs were necessary for use in the case. (Doc.
#732, p. 33.) Defendant did not discuss these costs in
the Reply. Exhibit 2 to the Bill of Costs contains a
list of vendors, dates, and the costs of copying
totaling $16,532.74. “[B]illing records which merely
list “copies” or “photocopies” without any description
of the nature or purpose of the photocopying was
insufficient.” United States ex rel. Christiansen v.
Everglades
Coll.,
Inc.,
No.
1260185-CIVDIMITROULE, 2014 WL 11531631, at *4 (S.D. Fla.
Nov. 13, 2014), report and recommendation adopted,

34a
No. 12-60185-CIV, 2014 WL 11531632 (S.D. Fla. Dec.
5, 2014). This costs will not be allowed.
Plaintiffs argue that defendant cannot recover
costs for copies of exhibits used in the deposition of
Mr. Kennedy because it was defendant who took the
deposition. The Court has not allowed the request for
“exhibit management” expenses associated with the
deposition of Glenn E. Kennedy, therefore this issue
is moot.
The billing records for the date of the
reproduction of documents shows “Park Evaluations
and Translations of Swiss Prosecution Letter and
Mallorca Property Declaration.” It is unclear if the
request is for copies of the translations, and to what
end. Therefore, the entire amount will be denied.
(b) E-Discovery Copying
Plaintiffs argue that the $81,198.14 in ediscovery costs should be disallowed entirely under
Wiand v. Wells Fargo Bank, N.A., No. 8:12-CV-557-T27EAJ, 2015 WL 12839237, at *10 (M.D. Fla. June 10,
2015), report and recommendation adopted, No. 8:12CV-557-T-27EAJ, 2016 WL 355490 (M.D. Fla. Jan. 29,
2016) (citing Akanthos Capital Mgmt., LLC v.
CompuCredit Holdings Corp., 2 F. Supp. 3d 1306, 1318
(N.D. Ga. 2014)). In reply, defendant argues that ediscovery costs are often awarded, and the amount
sought is not “unreasonably large.” (Doc. #750, p. 16.)
With regard to the prior version of § 1920(4),
the Eleventh Circuit stated that section 1920(4)
“allows recovery only for the reasonable costs of
actually duplicating documents, not for the cost of
gathering those documents as a prelude to
duplication.” Allen v. U.S. Steel Corp., 665 F.2d 689,

35a
697 n.5 (5th Cir. Unit B 1982). The United States
Supreme Court recently and clearly stated that ediscovery expenses are not authorized under § 1920.
Rimini St., Inc. v. Oracle USA, Inc., 139 S. Ct. 873, 878
(Mar. 4, 2019). Following the principle that only
copying costs are permitted under § 1920(4), the
Federal Circuit concluded that:
recoverable costs under section 1920(4) are
those costs necessary to duplicate an electronic
document in as faithful and complete a manner
as required by rule, by court order, by
agreement of the parties, or otherwise. To the
extent that a party is obligated to produce (or
obligated to accept) electronic documents in a
particular
format
or
with
particular
characteristics intact (such as metadata, color,
motion, or manipulability), the costs to make
duplicates in such a format or with such
characteristics preserved are recoverable as
“the costs of making copies...necessarily
obtained for use in the case.” 28 U.S.C. §
1920(4). But only the costs of creating the
produced duplicates are included, not a
number of preparatory or ancillary costs
commonly incurred leading up to, in
conjunction with, or after duplication.
CBT Flint Partners, LLC v. Return Path, Inc., 737
F.3d 1320, 1326 (Fed. Cir. 2013). As Akanthos Capital
Mgmt., LLC v. CompuCredit Holdings Corp., 2 F.
Supp. 3d 1306, 1318 (N.D. Ga. 2014) stated:
The Federal Circuit divided e-discovery costs
into three categories: (1) the cost of “imaging”
hard drives containing ESI and processing that

36a
single-file “image” to extract individual
documents with their original properties and
metadata intact; (2) the cost of organizing the
extracted documents into a database and then
indexing, decrypting, de-duplicating, filtering,
analyzing, searching and reviewing those
documents to determine which are responsive;
and (3) the cost of copying responsive
documents onto DVDs or the like for delivery
to the requesting party.
Akanthos, 2 F. Supp. 3d at 1314 (citing CBT Flint
Partners, LLC v. Return Path, Inc., 737 F.3d 1320
(Fed. Cir. 2013)). The first category is “mostly”
taxable, the second category is “mostly”
nontaxable, and the third category is taxable. Id. See
also Deere & Co. v. Duroc LLC, 650 F. App'x 779, 782
(Fed. Cir. 2016) (e-discovery costs incurred in
procedures required by a ESI Agreement can come
within the scope of § 1920). Generally speaking, “while
the costs of digitizing paper documents and making
duplicates of electronic documents are recoverable,
many of the other costs associated with e-discovery
(such as creating and maintaining a dynamic, indexed,
and searchable database) are not recoverable.” HRCC,
Ltd. v. Hard Rock Cafe Int'l (USA), Inc., No. 6:14-CV2004-ORL-40KRS, 2018 WL 1863778, at *10 (M.D. Fla.
Mar. 26, 2018), report and recommendation adopted,
No. 6:14-CV-2004-ORL-40KRS, 2018 WL 1863779
(M.D. Fla. Apr. 13, 2018).
In this case, defendant argues that there are
several categories of allowable electronic discovery
costs, including formatting, extraction while preserving
all associated metadata, the creation of load files. (Doc.

37a
#741, p. 11 n.9) (citing Procaps v. Patheon Inc., No. 1224356-CIV, 2016 WL 411017, at *12-13 (S.D. Fla. Feb.
2, 2016)). In the September 21, 2015 Case Management
Report (Doc. #86, ¶ IV.G), the parties indicated that
they would be entering into an agreement to govern the
production of electronically stored information. The ediscovery costs are listed by date and amount. (Doc.
#715, Exh. 4, p. 51.) The following e-discovery costs,
billed at a rate of $275.00 an hour or at a unit price
by DTI2, are sought:
Invoice Date

Description

Amount
Sought

10/31/2015

Data Collection at Client Site,
Remote Email Collection,
Mobile/Tablet Collection, and
Data Collection at DTI Site

$24,600.00

11/30/2015

Data Ingestion, Scanning Ework – Glass work, Scan B/W
8.5x11, OCR, Project
Management

$7,504.04

12/31/2015

Project Management, Data
Ingestion, Technical Time,
Data Collection at Client Site,
Project Management

$2,417.00

2/16/2016

Hard Drive (Pictera Solutions) $159.00

Th e 2/ 16/ 2 0 16 In v o ic e i s fr om Pic ter a Sol u tion s a s
identified in the Chart. (Doc. #715, p. 69.)
2

38a
2/29/2016

Monthly Storage Fee, Loading $5,218.76
Fee, Image Endorsement, OCR
Conversion, PDF Conversion,
Native Document Export,
Native Production Export,
Project Management, Data
Extraction, CD Media

3/31/2016

Loading Fee, Image
$6,311.90
Endorsement, OCR
Conversion, Hard Drive Media,
Native Production/Export,
Project Management, Data
Extraction

4/30/2016

Loading Fee, Project
Management

5/31/2016

Loading Fee, Project
$6,092.19
Management, OCR
Conversion, Hard Drive Media,
Native Production/Export,
Drive Imaging at Client Site,
Hard Drive Media, Data
Extraction, Scanning BW,
OCR

6/30/2016

Loading Fee, Project
Management, PDF conversion
Hard Drive Media, Data
Ingestion, Data Extraction

$20,420.06

9/30/2016

Loading Fee, Project
Management

$757.40

10/31/2016

Loading Fee, Image
$4,555.59
Endorsement, Native Exports,
OCR Conversion, PDF
Conversion, Subset/TIFF Conv,
Project Management

TOTAL:

$3,162.20

$81,198.14

39a
(Id., pp. 52-69.)
Defendant submits that her costs follow the
amounts allowable, however most of the detailed costs
are for the convenience of counsel, i.e., conversions, or
management by the hired company for review by
counsel. The actual electronic copies must be limited
to data ingestion or extraction as a substitute for
physical copying. Therefore, the only allowable
“copying” costs are those for data ingestion on
11/30/2015 ($3,190.00), data ingestion on 12/31/2015
($740.00), the native document export and production
export ($946.22) and CD Media ($225.00) on 2/29/2016,
the hard drive media and native production/export on
3/31/2016 ($1,690.00), the hard drive media and native
production/export on 5/31/2016 ($1,770.00), hard drive
media and data ingestion on 6/30/2016 ($3,750.00),
native exports on 10/31/2016 ($129.50), and the hard
drive invoiced by Pictera Solutions ($159.00). This
provides for a sum total of $12,599.72.
A total of $22,199.67 in costs will be taxed
in favor of defendant pursuant to Rule 54(d).
III. Attorney’s Fees and Expenses
A. Rule 37(d)
Defendant seeks attorney’s fees and expenses
as a sanction pursuant to Fed. R. Civ. P. 37(d) for the
failure of plaintiff’s counsel to attend properly noticed
depositions.
The depositions of Glenn Kennedy and Absolute
East West Fund were noticed and scheduled by
defendant. (Doc. #692, ¶ 57.) A motion for protective
order was filed by plaintiffs, and the Magistrate Judge
cancelled the deposition of Absolute East West Fund

40a
pending resolution of the motion. (Id., ¶¶ 61-62.) The
parties reached an agreement to reschedule Mr.
Kennedy’s deposition for a later date. (Id., ¶¶ 64-65.)
Thereafter, while the motion for protective
order remained pending, defendant served notices of
depositions for the Absolute Activist Value Master
Fund, the Absolute Germany Fund, and the Absolute
India Fund. (Id., ¶ 71.) Plaintiffs notified counsel
for defendant that “No witness will appear.” (Id., ¶
72.) Plaintiffs wrote a letter objection to defendant’s
counsel asking that the improper notices be
withdrawn, but did not file a second motion for
protective order with the Court. (Id., ¶ 75.) Despite
actual notice of an intent not to appear, “an associate
from the Fox Rothschild firm in Philadelphia prepared
for the depositions; sent two boxes of materials by
express mail to Ft. Myers; flew to Florida on January
23; stayed overnight at a hotel; traveled locally;
appeared at the January 24 ‘deposition’” of one of the
Funds, ready to go, but only to note on the record the
nonappearance of the Fund before returning. (Doc.
#738, p. 27.)
Defendant seeks her costs and attorney fees
associated with the failure of plaintiffs to attend the
depositions. The pertinent portion of Rule 37
provides:
(d) Party's Failure to Attend Its Own
Deposition, Serve Answers to Interrogatories, or Respond to a Request for
Inspection.
(1) In General.

41a
(A) Motion; Grounds for Sanctions. The
court where the action is pending may, on
motion, order sanctions if:
(i) a party or a party's officer, director, or
managing agent--or a person designated
under Rule 30(b)(6) or 31(a)(4)--fails, after
being served with proper notice, to appear
for that person's deposition; or
. . .
(B) Certification. A motion for sanctions for
failing to answer or respond must include a
certification that the movant has in good
faith conferred or attempted to confer with
the party failing to act in an effort to obtain
the answer or response without court action.
(2) Unacceptable Excuse for Failing to
Act. A failure described in Rule
37(d)(1)(A) is not excused on the ground
that
the
discovery
sought
was
objectionable, unless the party failing to
act has a pending motion for a protective
order under Rule 26(c).
(3) Types of Sanctions. Sanctions may
include any of the orders listed in Rule
37(b)(2)(A)(i)-(vi). Instead of or in addition
to these sanctions, the court must require
the party failing to act, the attorney
advising that party, or both to pay the
reasonable expenses, including attorney's
fees, caused by the failure, unless the
failure was substantially justified or other

42a
circumstances make
expenses unjust.

an

award

of

Fed. R. Civ. P. 37(d).
The amount that plaintiffs may be ordered to
pay for failure to attend their own deposition is
“reasonable expenses, including attorney’s fees”.
Taylor v. Taylor, 133 F. App'x 707, 709 (11th Cir.
2005). “Substantially justified means that reasonable
people could differ as to the appropriateness of the
contested action.” Maddow v. P&G Co., 107 F.3d 846,
853 (11th Cir. 1997) (citing Pierce v. Underwood, 487
U.S. 552, 565 (1988)).
Plaintiffs’ motion for protective order regarding
the cancelled depositions was granted in part, and
Absolute East West Fund Limited was required to
designate in writing an individual to testify on the
permitted topics. (Doc. #679.) Exactly one week later,
plaintiffs moved to dismiss the last remaining count
without prejudice. Based on these facts, plaintiffs
argued that there was not a reasonable basis for the
failure to appear. While plaintiffs did not file a second
motion for protective order, defendant also did not file a
motion for sanctions after plaintiffs failed to appear at
the scheduled depositions. Of course, the voluntary
dismissal intervened before defendant had an
opportunity to pursue the matter.
Defendant argues that even if a motion for a
protective order had been pending, this does not relieve
the duty to appear for other noticed depositions, and
plaintiffs did not even try to get a protective order.
Plaintiffs argue that refusing to appear at improperly
noticed depositions does not warrant sanctions.

43a
Defendant incurred costs in the amount of
$28,200.86 as a result of plaintiffs’ failure to attend
the depositions. (Doc. #742, ¶ 28.) If plaintiffs were
planning to dismiss the action, an effort should have
been taken to avoid the unnecessary cost to defendant.
Travel-related expenses for the depositions that were
not attended by plaintiffs are listed as $4,018.51,
however the numbers do not add up to explain the
discrepancy in the amount of legal fees ($22,729) plus
expenses, and the total provided. (Doc. #714-17, Exh.
Q.) Counsel charged hourly rates ranging from $390
an hour to $595 an hour, and billing records were not
provided. (Doc. #714-29, ¶ 6.)
Plaintiffs argue that the amounts should be
denied as they are unsupported, and much of the fees
are for preparation and not as a result of the failure
to appear. (Doc. #738, pp. 29-30.) Defendant declined
to provide billing records to verify the sums until
such time as the Court requested the unredacted
billing records for an in camera review. (Doc. #714, ¶
27 n.2.) The Court is not inclined to carry the burden
to aid defendant’s collection efforts for an amount
that greatly exceeds any reasonable attorney’s fees
that would have been incurred for the failure to
appear. The Court will allow the messenger services,
the air travel, the taxi/Uber expenses, and the hotel.
The Court will also allow a portion of the meals for a
total of $80. (Doc. #714-17, Exh. Q.) The Court
declines to award the translation fees that were
unrelated to the appearance of the deponents.
Therefore, the Court will award $886.60 in expenses
for the failure to appear.

44a
B. Inherent Authority
Defendant argues that attorney fees and costs
should be imposed as a sanction pursuant to the
Court’s inherent authority to do so. Absent statutory
authority or an enforceable contract, recovery of
attorney fees by even a “prevailing party” is
ordinarily not permitted under the “American Rule.”
Alyeska Pipeline Serv. Co. v. Wilderness Soc’y, 421
U.S. 240, 257 (1975); Buckhannon Bd. & Care Home,
Inc. v. W. Va. Dep’t of Health & Human Res., 532 U.S.
598, 602 (2001).
Defendant alleges bad faith conduct on the part
of plaintiffs justifying an award of attorney fees and
expenses on top of taxable costs. “As document
discovery and motion practice continued in this Action,
Ms. Devine learned that Plaintiffs’ collaboration with
the Swiss government continued throughout this
litigation and even after the dismissal of Plaintiffs’
suit.” (Doc. #741, p. 5.) Defendant argues that even if
some merit existed, the case was about harassment
and that the Court is “well within its authority to
impose sanctions, including attorneys’ fees” for
plaintiffs’ conduct. (Doc. #741, p. 21.)
Courts have the inherent power to police
those appearing before them. Chambers
v. NASCO, Inc., 501 U.S. 32, 46 (1991). A
court's inherent power is “governed not by
rule or statute but by the control
necessarily vested in courts to manage
their own affairs so as to achieve the
orderly and expeditious disposition of
cases.” Id. at 43 (citing Link v. Wabash
R.R., 370 U.S. 626, 630–31 (1962)). This

45a
power “must be exercised with restraint
and discretion” and used “to fashion an
appropriate sanction for conduct which
abuses the judicial process.” Id. at 44–45.
A court may exercise this power “to
sanction the willful disobedience of a court
order, and to sanction a party who has
acted in bad faith, vexatiously, wantonly,
or for oppressive reasons.” Marx v. Gen.
Revenue Corp., 568 U.S. 371, 382 (2013)
(citing Chambers, 501 U.S. at 45–46). The
dual purpose of this power is to vindicate
judicial authority without resorting to a
contempt of court sanction and to make
the
prevailing
party
whole.
See
Chambers, 501 U.S. at 46. The key to
unlocking a court's inherent power is a
finding of bad faith. See Sciarretta [v.
Lincoln Nat. Life Ins. Co., 778 F.3d 1205,
1212 (11th Cir. 2015)].
Purchasing Power, LLC v. Bluestem Brands, Inc.,
851 F.3d 1218, 1223 (11th Cir. 2017). As noted by
plaintiffs, defendant cites to an objective standard
applied under 28 U.S.C. § 1927 and Rule 11, however
a different standard is applied for inherent power
sanctions, i.e., a subjective bad-faith standard. Id. at
1223.
Although defendant continually raises this
theory of bad faith and collusion, there is insufficient
information to support the imposition of sanctions,
even if plaintiffs were working with the Swiss
government or collecting data for discovery in related
cases. The high standard of finding bad faith cannot

46a
be met in the absence of fraud on the Court, proof of
forum shopping, unreasonable and vexatious
multiplying of proceedings, pursuing a case barred by
the statute of limitations, or purposely vexatious
behavior as exhibited in Purchasing Power and the
several cases cited by defendant. (Doc. #741, p. 21.)
This case did not arise to this level by any stretch of
the imagination, and the Court will decline to impose
such extraordinary sanctions in this case.
C. Florida RICO
Defendant seeks to have the Court impose all
reasonable attorney’s fees and court costs under the
statute, and not only those associated with Florida’s
RICO claim. (Doc. #741, p. 34, n.34.) A party is
entitled to reasonable attorney’s fees and court costs
if it “proves by clear and convincing evidence that he or
she has been injured by reason of any violation of” the
Civil Remedies for Criminal Practices Act, commonly
referred to as Florida’s RICO statute. Fla. Stat. §
772.104(1) (2006). “The defendant shall be entitled to
recover reasonable attorney's fees and court costs in
the trial and appellate courts upon a finding that the
claimant raised a claim which was without
substantial fact or legal support.” Fla. Stat. §
772.104(3) (2006)3. “The intent of the Florida
legislature in adopting this less stringent standard was
‘to discourage frivolous RICO claims or claims brought
for the purpose of intimidation because the stigma and
burden of defending such claims is so great.’” Johnson
The previous version of this statute placed this language in
the first paragraph. See Fla. Stat. § 772.104 (1997). This
language was simply moved to a separate paragraph in the
current version of the statute.
3

47a
Enters. of Jacksonville, Inc. v. FPL Grp., Inc., 162 F.3d
1290, 1330–31 (11th Cir. 1998) (citation omitted).
“[A]n action is ‘substantially justified’ for the purpose
of attorney's fees where it advances in good faith a
novel but credible extension or interpretation of the
law.” Beck v. Olstein, 588 So. 2d 317, 318 (Fla. 3d
DCA 1991) (citation omitted).
In the Opinion and Order granting a
temporary restraining order, the Court found that
the evidence showed a common purpose to conceal
the Penny Stock Scheme proceeds for the benefit of
their children, bank records showed that defendant
ordered certain transfers for the same purpose, and
that plaintiffs “are substantially likely to establish
an association-in-fact enterprise.” (Doc. #10, p. 53.)
The Court noted it was “likely that the transactions
involved the proceeds of statutorily specified
unlawful activity”, and that it was “also likely that
Devine knew the proceeds were derived from some
form of illegal activity.” (Id., p. 55) (citations
omitted).The Court found that defendant “likely knew
that a purpose of the transactions was to conceal or
disguise the nature, location, source, ownership, or
control of the proceeds.” (Id., p. 56.) The Court
concluded that plaintiffs could establish that defendant
conducted numerous money laundering transactions,
and could demonstrate a substantial likelihood of
success on the merits of the RICO claims. (Id., pp. 5859.) The Court continued to find that the claims were
viable in denying defendant’s Motion to Dissolve
Temporary Restraining Order. (Doc. #368.)
On July 19, 2016, the Magistrate Judge set a
briefing schedule to address the effect of RJR Nabisco,

48a
Inc. v. European Cmty., 136 S. Ct. 2090 (2016) on the
pending motions. (Doc. #424.) In deciding the
Motion to Dismiss, the Court noted that many acts of
misconduct were alleged to have taken “place entirely
outside the United States and therefore cannot form
the basis of RICO recovery.”
(Doc. #521, pp. 56,
60.) “Given the intervening decision in RJR Nabisco
Inc.”, the Court allowed plaintiffs to file a second
amended complaint “to state plausible RICO claims”,
and declined to address the remaining arguments.
The federal and Florida RICO claims were dismissed
without prejudice. (Id.) A Second Amended
Complaint (Doc. #560) was filed on May 15, 2017,
only seeking relief for unjust enrichment. As a result,
the temporary restraining order was dissolved.(Doc.
#575.) The Court granted partial judgment in favor of
defendants on the abandoned claims deeming them
dismissed with prejudice. (Doc. #707.)
The Court cannot find that defendants raised a
claim without substantial fact or legal support. It
appeared that the injury to plaintiffs was only
extraterritorial but even with the intervening case of
RJR Nabisco Inc., the Court provided an opportunity
to amend. Plaintiffs advanced a theory for a violation
of Florida’s RICO in good faith. This was not a
directed verdict, summary judgment, or even a
dismissal on the merits even if it was ultimately a
dismissal with prejudice. The motion for attorney’s
fees will be denied.
D. Damages on Temporary Restraining
Order Bond
Defendant argues that the decision to abandon
this case only after causing her to incur millions in

49a
legal fees “reveals” that plaintiffs acted in bad faith.
Defendant further argues that the temporary
restraining order “foisted serious financial” hardships
on her. (Doc. #741, p. 17.) Defendant argues that the
bond amount was considerably less than the costs
and fees that she incurred, and she should be
awarded damages on the bond amount. Plaintiffs
respond that the injunction was only dissolved after
an intervening change in the law resulted in the
dismissal of the RICO claims, and not because it
should not have been issued in the first place.
An injunction may issue only if the movant
gives security “in an amount that the court considers
proper to pay the costs and damages sustained by
any party found to have been wrongfully enjoined or
restrained.” Fed. R. Civ. P. 65(c). “[A] prevailing
defendant is entitled to damages on the injunction
bond unless there is a good reason for not requiring
the plaintiff to pay in the particular case.” State of
Ala. ex rel. Siegelman v. United States EPA, 925
F.2d 385, 390 (11th Cir. 1991) (citing Coyne– Delany
Co. v. Capital Dev. Bd. of Illinois, 717 F.2d 385, 391
(7th Cir. 1983)).
On April 19, 2016, the Court issued an Opinion
and Order (Doc. #368) denying requests to dissolve the
temporary restraining order. A year later, on July 25,
2017, after dismissal of all the federal claims, the Court
dissolved the temporary restraining order. (Doc. #575.)
Even without records of the damages incurred by
defendant as a result of the bond, the Court finds good
reason to not require the payment of damages by
plaintiffs on the bond. The injunction was properly

50a
granted, and it was timely dissolved after it was no
longer appropriate. The motion will be denied.
Accordingly, it is hereby
ORDERED AND ADJUDGED:
1. Defendant's Motion for Award of Costs and
Fees (Doc. #713 and Doc. #741) is GRANTED
in part and DENIED in part. Defendant is
awarded a total of $22,199.67 in taxable costs
($10.00 in docketing fees, $260 in service fees,
$495.95 for transcripts, $8,674.00 for
depositions, $160 for witness fees, and
$12,599.72 for electronic copying), and $886.60
in non-taxable expenses. The motion is
otherwise denied.
2. Defendant shall submit a revised Bill of
Costs to the Clerk of Court.
3. The Clerk shall tax costs pursuant to the
revised Bill of Costs upon receipt, and also
enter judgment awarding in favor of
defendants for the $886.60 in expenses under
Fed. R. Civ. P. 37(d).
DONE and ORDERED at Fort Myers,
Florida, this 1st day of August, 2019.

Copies: Counsel of Record

_____________________
JOHN E. STEELE
SENIOR UNITED
STATES DISTRICT
JUDGE

51a
APPENDIX D
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ABSOLUTE ACTIVIST
VALUE MASTER FUND
LIMITED, ABSOLUTE EAST
WEST FUND LIMITED,
ABSOLUTE EAST WEST
MASTER FUND LIMITED,
ABSOLUTE EUROPEAN
CATALYST FUND LIMITED,
ABSOLUTE GERMANY
FUND LIMITED,
ABSOLUTE INDIA FUND
LIMITED, ABSOLUTE
OCTANE FUND LIMITED,
ABSOLUTE OCTANE
MASTER FUND LIMITED,
and ABSOLUTE RETURN
EUROPE FUND LIMITED,
Plaintiffs,
v.
SUSAN ELAINE DEVINE,
Defendant,
and
LAIRD LILE, CONRAD
HOMM, and ORION
CORPORATE & TRUST
SERVICES, LTD.,
Intervenor-Defendants.

Case No. 2:15-cv328-FtM-29MRM
DISPOSITIVE
MOTION
ORAL
ARGUMENT
REQUESTED

52a
DEFENDANT’S MOTION TO DISMISS SECOND
AMENDED COMPLAINT
SCHOEPPL LAW, P.A.
4651 North Federal
Highway
Boca Raton, FL 334315133
Phone: (561) 394-8301
Fax: (561) 394-3121
FOX ROTHSCHILD LLP
2000 Market Street, 20th
Floor
Philadelphia, PA 19103
Phone: (215) 299-2795
Fax: (215) 299-2150
Dated: July 19, 2017
*

*

Attorneys for Defendant
*

*

*

[14]
2006 and 2007 that now form the basis for their
unjust enrichment count.
Plaintiffs remained silent for nearly two years
after Ms. Devine’s divorce from Homm was
publicized, waiting until October 2009 to file the
SDNY Action against Homm and others in
connection with the “Penny Stock Scheme.” (Ex. 2.)
Then, the pleadings filed by Plaintiffs in the SDNY

53a
Action named “Doe” defendants intended to capture
unidentified or unnamed wrongdoers. (See Exs. 2, 11
(SDNY pleadings).)
In fact, the assignment
agreement by which Plaintiffs purchased, in 2009,
the rights to bring this litigation specifically
referenced potential “claims . . . arising from . . . the
activities of” Ms. Devine. Plaintiffs also hired an
investigator who contacted Ms. Devine in December
2009 at her home in Florida, informed her about the
allegations made by Plaintiffs in the SDNY Action,
and gave Ms. Devine a copy of the complaint filed in
that case. Plaintiffs’ counsel contacted Ms. Devine
again in February 2010. (SAC at ¶ 151(a), (b).)
IV.

PLAINTIFFS’ EXCUSES FOR THEIR
INORDINATE DELAY IN BRINGING THE
INSTANT FOLLOW-ON SUIT

Cognizant of the time-barred nature of their
claim against Ms. Devine, Plaintiffs have littered the
SAC with attempts to pre-empt Ms. Devine’s statute
of limitations defense and to withstand the instant
motion to dismiss. In a futile effort to justify their
delay in bringing suit against Ms. Devine, Plaintiffs
assert, for instance, that they were effectively duped
by Ms. Devine’s “fil[ing of] a fraudulent affidavit in a
Florida court on August 7, 2006” that listed “just
$1,640,000” in assets and thereby “omitted tens of
millions of dollars in assets.” (SAC at ¶¶ 105, 221.)
Plaintiffs knew that Ms. Devine received at least
some assets and, in any
*

*

*

*

*

54a
[18]
inapplicable to legal conclusions,’” Cigna, 605
F.3d at 1290 (quoting Iqbal, 129 S.Ct. at 1949), and
courts are “‘not required to admit as true [any]
unwarranted deduction of fact.’” Cigna, 605 F.3d at
1294 (quoting Sinaltrainal v. Coca-Cola Co., 578 F.3d
1252, 1268 (11th Cir. 2009).)
The scope of the Court’s review includes “other
sources courts ordinarily examine when ruling on
Rule 12(b)(6) motions to dismiss, in particular,
documents incorporated into the complaint by
reference, and matters of which a court may take
judicial notice.” Tellabs, Inc. v. Makor Issues &
Rights, Ltd., 551 U.S. 308, 322 (2007) (citation
omitted); Sewell v. D’Alessandro & Woodyard, Inc.,
No. 2:07-cv-343-FtM-29SPC, 2008 WL 4459260, at *4
(M.D. Fla. Sept. 29, 2008) (Steele, J.); FED. R. CIV. P.
10(c); FED. R. EVID. 201; see also Dkt. Entry 521 at
31-33. A complaint may be dismissed “when the
existence of an affirmative defense ‘clearly appears
on the face of the complaint.’” Dkt. Entry 521 at 61
(quoting Quiller v. Barclays Am./Credit, Inc., 727
F.2d 1067, 1069 (11th Cir. 1984), aff’d on reh’g, 764
F.2d 1400 (11th Cir. 1985)); see also La Grasta v.
First Union Sec., Inc., 358 F.3d 840, 845 (11th Cir.
2004) (same) (citing Omar v. Lindsey, 334 F.3d 1246,
1247 (11th Cir. 2003).)
II.

PLAINTIFFS’ CLAIM FOR UNJUST
ENRICHMENT IS TIME-BARRED

55a
Plaintiffs assert that the first transfer of funds
from the alleged “Penny Stock Scheme” to Ms. Devine
occurred in 2006 and the last in 2007. (See SAC at
¶¶ 104-123, 129, 153-159.) The four-year statute of
limitations applicable to Plaintiffs’ sole remaining
claim “accrues or begins to run when the last element
of the cause of action occurs.” Davis v. Monahan, 832
So.2d 708, 709 (2002). Under Florida law, the statute
of limitations begins to run when any benefit was
conferred. Merle Wood & Assocs., Inc. v. Trinity
Yachts, LLC, 714 F.3d 1234, 1237 (11th Cir. 2013),
affirming 857 F.Supp. 2d 1295, 1312 (S.D.Fla. 2012)
(rejecting argument that subsequent payments
reopen accrual date for unjust enrichment statute of
limitations purposes); see also In re Burton Wiand
Receivership Cases Pending in the Tampa Div. of the
Middle Dist. of Fla., No. 8:05-cv-1856-T-27MSS, 2008
WL 818504, at *8 (M.D. Fla. Mar. 26, 2008) (“Under
Florida law, however, an unjust enrichment claim
accrues when the benefit is conferred.”) (citations
omitted).
Here, the limitations period began to run in
2006, when Ms. Devine and Homm filed documents
in connection with their divorce that listed certain
assets Ms. Devine received. Plaintiffs were aware of
2007 transfers as well. Plaintiffs do not allege any
transfers after 2007 as opposed to what is termed
concealment activity. As a result, the limitations
period expired in 2010 (or, at the latest, no later than
2011). Because Plaintiffs waited until June 1, 2015
to commence this case, their claim for unjust
enrichment is time-barred. Plaintiffs nonetheless

56a
allege in the SAC or have previously briefed (e.g.,
Dkt. Entry 543 at 9-10; Dkt. Entry 553 at 3-9; Dkt.
Entry 554 at 4-8) a number of purported
explanations as to why the statute of limitations
applicable to their sole remaining claim has not run.
These arguments fail, and Ms. Devine below
considers each in turn.
A.

The Delayed Discovery Doctrine Is
Inapplicable
to
Plaintiffs’
Unjust
Enrichment Claim

Florida’s “delayed discovery” doctrine does not
apply to claims for unjust enrichment. Davis, 832
So.2d at 709. Thus, the accrual of the statute of
limitations

57a
APPENDIX E
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ABSOLUTE ACTIVIST
VALUE MASTER FUND
LIMITED, ABSOLUTE EAST
WEST FUND LIMITED,
ABSOLUTE EAST WEST
MASTER FUND LIMITED,
ABSOLUTE EUROPEAN
CATALYST FUND LIMITED,
ABSOLUTE GERMANY
FUND LIMITED,
ABSOLUTE INDIA FUND
LIMITED, ABSOLUTE
OCTANE FUND LIMITED,
ABSOLUTE OCTANE
MASTER FUND LIMITED,
and ABSOLUTE RETURN
EUROPE FUND LIMITED,
Plaintiffs,
v.
SUSAN ELAINE DEVINE,
Defendant,
and
LAIRD LILE, CONRAD
HOMM, and ORION

Case No. 2:15-cv328-FtM-29MRM

58a
CORPORATE & TRUST
SERVICES, LTD.,
Intervenor-Defendants.

DEFENDANT’S MOTION FOR ENTRY OF
PARTIAL FINAL JUDGMENT
*

*

*

*

*

[4]
Defendant Susan Elaine Devine (“Ms.
Devine”), by and through her undersigned counsel,
respectfully moves, pursuant to Rule 58 of the
Federal Rules of Civil Procedure (the “Federal
Rules”), for entry of a final judgment in favor of Ms.
Devine and against Plaintiffs with respect to the
counts of Plaintiffs’ Amended Complaint that were
dismissed by the Court on February 8, 2017.
PRELIMINARY STATEMENT
On June 1, 2015, Plaintiffs began the instant
litigation (“the Action”) with the filing of a 112-page
complaint and an ex parte motion for a temporary
restraining order freezing bank accounts and real
property across the globe. In that ex parte motion,
Plaintiffs assured the Court that they were
“substantially likely to prevail on the merits” and
claimed to have “unequivocal evidence of [Ms.]
Devine’s criminal money laundering and unjust

59a
enrichment.” The ex parte motion was granted by this
Court based upon Plaintiffs’ submissions. The parties
then engaged in intense and contentious litigation
that resulted, first, in the dismissal of Plaintiffs’
RICO counts on February 8, 2017, leaving the
Plaintiffs with only a common law unjust enrichment
claim. That ruling was followed on July 25, 2017 by
an Order dissolving the temporary restraining order.
Finally, two-and-a-half years after the filing of the
Action, with a motion to dismiss their Second
Amended Complaint pending, Plaintiffs voluntarily
dismissed what remained of their case and walked
away without a cent.
In the interim, Ms. Devine learned that the
legal ambush that upended her life was the product
of a years-long collaboration between Plaintiffs—
whose investment manager, Absolute Capital
Management Holdings, Ltd., once employed her exhusband—and the Office of the Attorney General of
Switzerland (“OAG”). As document discovery and
motion practice continued, pushing her legal bills
into the stratosphere, Ms. Devine learned that
Plaintiffs’ collaboration with the Swiss government
had not ended and, indeed, continues to this day.
It has now become clear that Plaintiffs worked
hand-in-glove with the OAG throughout this case
and, in Ms. Devine’s view, abused the U.S. legal
system to aid a foreign investigation. When Plaintiffs
obtained account statements, asset lists, and
deposition testimony from Ms. Devine and others in
this Action, they continuously funneled those

60a
materials to the OAG. In turn, the OAG made
requests of the U.S. government on Plaintiffs’ behalf.
Those efforts included asking the U.S. government
just last fall to refreeze assets that had been released
by this Court. The OAG also shared with Plaintiffs
documents that it had received from the U.S.
government, including FBI work-product created in
connection with a U.S. grand jury investigation.
Plaintiffs, in turn, used that work-product to create
the Estera expert report that they served on Ms.
Devine last summer and then turned over to the
OAG for use in its investigation. Indeed, within just
the last few weeks, the OAG issued another
investigative report that repeatedly cites the Estera
report and deposition testimony that Plaintiffs
obtained in this Action.
As severe as this list of abuses of the U.S. legal
system appears, that is not the extent of Plaintiffs’
misconduct. The full scope of Plaintiffs’ bad-faith
conduct became clear only as they persistently
refused to provide deposition testimony in this
Action, in clear contravention of their obligations
under the Federal Rules. In fact, while Ms. Devine
was deposed twice during the pendency of this case,
not even one of the nine Plaintiffs provided so much
as a minute of deposition testimony. Rather, they
resisted every deposition notice Ms. Devine issued,
whether through motion practice or a brazen and
inexcusable refusal to appear. When the Court
eventually ordered the first of the Plaintiff funds to
submit to a deposition, Plaintiffs voluntarily

61a
dismissed their last cause of action instead and
disappeared without explanation.
In short, the facts admit only one conclusion:
Plaintiffs acted in bad faith and used this Action as a
mere discovery device in support of their Swiss legal
campaign. They commenced this case only after
secretly requesting that the OAG pursue criminal
charges against Ms. Devine (which the Swiss to date
have declined to do), and concealed that fact from Ms.
Devine when they negotiated a protective order with
a provision permitting them to send information
offshore. Plaintiffs then abused the liberal discovery
permitted under U.S. law to obtain reams of financial
information and sworn deposition testimony that
they could not otherwise have acquired. As they
funneled that material back to the OAG—and as they
successfully campaigned to have the OAG make
requests to the U.S. government on their behalf—
Plaintiffs steadfastly refused to provide even one
word of sworn deposition testimony themselves.
Finally, when the Court ordered them to submit to a
deposition after more than two years of scorchedEarth litigation, they chose to drop their claim and
vanish.
The instant Motion begins the process of
seeking redress for this misconduct by requesting
entry of a partial final judgment in Ms. Devine’s
favor as to the claims dismissed by the Court on
February 8, 2017.

62a
BACKGROUND2
I.

Plaintiffs’ Close Relationship with the
Swiss Attorney General

Since at least 2011, the OAG has been engaged
in an investigation relating to “fraud allegedly
committed by Florian H[omm]”—i.e., Ms. Devine’s
former spouse—and others. See Exhibit A, Sept. 14,
2017 letter from OAG to U.S. Department of Justice
at 3. For years, Plaintiffs, who have conceded that
their business consists of nothing other than asset
collection, i.e., litigation, have worked closely with
the OAG in an effort to steer that investigation to
their benefit.
A.

The OAG’s Historical Use of Formal
MLAT Requests

In the course of its investigation, the OAG has
made a series of formal “request[s] for mutual legal
assistance” to the Office of International Affairs at
the United States Department of Justice (the “DOJ”).
Id. at 2. Those formal requests—the first of which
were issued in September and December of 2011—
are made pursuant to a mutual legal assistance
treaty, or “MLAT,” between the U.S. government and
This litigation and the facts underlying it have been described
at length in the parties’ prior submissions to this Court.
Accordingly, Ms. Devine summarizes herein only the facts most
relevant to the instant Motion. For a fuller account of the
background of this matter, Ms. Devine respectfully refers the
Court to her Motion to Dismiss Plaintiffs’ Second Amended
Complaint. See Dkt. Entry 569.
2

63a
the Swiss. Id. at 2; see also Exhibit B, Feb. 11, 2016
Declaration of Bruce Zagaris, at ¶ 3. The U.S.-Swiss
MLAT requires that each request sent by one country
to the other be “handled by a Central Authority.” Ex.
B at ¶ 24. When the DOJ receives an MLAT request
from the Swiss, the receiving attorney is obligated to
“discuss such request[] with the Office of
International
Affairs
before
providing
any
assistance,” id. at ¶ 25, and any documents produced
to the Swiss government in response are subject to
“strict[]” use limitations. Id. at ¶ 29.
B.

The Relationship Between Plaintiffs and
the OAG

In or around January 2013, Plaintiffs, acting
through their Swiss counsel, petitioned the OAG “to
be recognized as claimants” in connection with the
OAG’s investigation. See Exhibit C, Feb. 19, 2016
Declaration of Linda Imes, at ¶ 3. On May 31, 2013,
the OAG granted Plaintiffs’ request. Id. at ¶ 4. As a
result, Plaintiffs were granted “access to the
investigative file of the Swiss prosecutor.” Id. at ¶ 5.
Thereafter, Plaintiffs analyzed documents in
the OAG’s investigative file, provided strategic advice
to the OAG, and, among other interactions, sent to
the OAG color-coded lists of “procedural acts” to
perform in connection with the investigation. See,
e.g., Exhibit D, Jan. 22, 2014 letter from Plaintiffs’
Swiss counsel, Jean-Marc Carnice to Graziella de
Falco Haldemann at 1-2, and Exhibit E, Feb. 18,
2014 letter from Jean-Marc Carnice to Graziella de
Falco Haldemann with excerpted annex, at 1. In fact,

64a
at least as early as February 18, 2014, Plaintiffs sent
to the OAG written instructions listing particular
bank accounts and real property owned by Ms.
Devine that Plaintiffs urged the OAG to seize. Id. at
2.
Plaintiffs often sought to keep their dealings
with the OAG hidden from public view. For instance,
on at least two occasions, Plaintiffs went so far as to
ask the OAG to “take all the measures in accordance
with the law to avoid communicating something to
the other parties regarding” Plaintiffs’ written
requests to the OAG. See Ex. D at 2; Exhibit F, April
29, 2014 letter from Jean-Marc Carnice to Graziella
De Falco Haldemann with excerpted annex, at 1.
C.

Plaintiffs’ Legal Ambush Against Ms.
Devine

On May 29, 2015, Plaintiffs filed with the OAG
a private “[c]riminal complaint” against Ms. Devine.
See Exhibit G, private Swiss criminal complaint, at 1;
see also Dkt. Entry 268 at 9. In their private Swiss
criminal complaint, Plaintiffs alleged that Ms.
Devine “is guilty of aggravated money laundering
and document forgery” and asserted that the
Absolute Funds had “suffered damages of USD
215,851,031, EUR 43,842,800, and JPY 734,184.” Id.

65a
at 42. Ms. Devine is the only putative defendant
named in the private Swiss criminal complaint.3
Significantly, Plaintiffs’ private Swiss criminal
complaint was not filed publicly. In fact, Plaintiffs
did not reveal to Ms. Devine that they had filed a
private Swiss criminal complaint against her until
February 2016, when Plaintiffs’ U.S. counsel filed
with this Court a declaration attaching a copy of that
complaint and a redacted copy of an index to the
OAG’s file. See Exhibits I and J to Feb. 19, 2016
Declaration of Linda Imes in Support of Plaintiffs’
Memorandum in Opposition
to Defendant’s
Emergency Motion for Protective Order (Dkt. Entries
269-9 and 269-10).4
On June 1, 2015, just six days after they filed
their private criminal complaint in Switzerland,
Plaintiffs filed their six-count, 313-paragraph
complaint against Ms. Devine alleging that she
engaged in a money laundering enterprise with her
ex-husband to conceal the proceeds of his and others’

Almost three years after its submission, the OAG has neither
adopted the private criminal complaint filed by Plaintiffs nor
filed any charges against Ms. Devine.
3 The OAG maintained a docket of filings and submissions
related to various proceedings but certain of the entries therein
were redacted. The entry relating to the private criminal
complaint was redacted. While Ms. Devine’s Swiss counsel had
access to the docket, Ms. Devine did not learn that Plaintiffs
had filed a private criminal complaint against her until
February of 2016. See Dkt. Entry 305 at 2.
2

66a
alleged “Penny Stock Scheme.”5 See Dkt. Entry 2 (the
“Complaint”) at ¶¶ 1-2. 6 Plaintiffs have since
conceded that “their allegations about [Ms.] Devine’s
[purported] money laundering activities[ ] rel[y]
entirely on materials they had received from the
Swiss File.” See Dkt. Entry 345, Plaintiffs’
Emergency Motion to Confirm Dates of Hearing
Scheduled for April 25 and 26, 2016 with Certain
Clarifications and to Quash Deposition Subpoenas
Issued to Plaintiffs’ Experts, at 7.
Contemporaneously, Plaintiffs filed with this
Court a request for an ex parte temporary restraining
order and preliminary injunction, limited expedited
discovery, and delayed service. See Dkt. Entry 3 (the
“Ex Parte TRO Motion”). In the Ex Parte TRO
Motion, Plaintiffs asserted that they were
“substantially likely to prevail on the merits of their
claims” and that a bond of “no more than $10,000”
was justified “[i]n light of the unequivocal evidence of
Devine’s criminal money laundering and unjust
enrichment.” See id. at 11-19, 25. This Court granted
It is noteworthy that even Plaintiffs conceded early on in the
Action that Ms. “Devine is not alleged to have participated in
th[e Penny Stock S]cheme.” Dkt. Entry 124 at 3.
5 The Complaint included causes of action for violations of 18
U.S.C. § 1962(c) (the “Federal RICO Claim”); violations of 18
U.S.C. § 1962(d) (the “Federal RICO Conspiracy Claim”);
violations of Fla. Stats. §§ 772.103(3) and 895.03(3) (the
“Florida RICO Claim”); violations of Fla. Stats. §§ 772.103(4)
and 895.03(4) (the “Florida RICO Conspiracy Claim”); common
law unjust enrichment (the “Unjust Enrichment Claim”); and
what Plaintiffs styled as “Constructive Trust – Common Law”
(the “Constructive Trust Claim”). See Complaint at ¶¶ 233-312.
4

67a
the Ex Parte TRO Motion in an Opinion and Order
issued on July 1, 2015. See Dkt. Entry 10 (the “Ex
Parte TRO”).
D.

Plaintiffs’ Concealment of Facts and Use
of the Protective Order as an End-Run
Around the U.S.-Swiss MLAT

Ms. Devine learned of the Ex Parte TRO and of
the Complaint on July 9, 2015. See Exhibit H, July 9,
2015 email from Linda Imes to Carl Schoeppl.
Twenty-one days later, the Court entered a
Stipulation and Protective Order governing the use of
discovery material produced or created in connection
with the instant action. See Dkt. Entry 64 (the
“Protective Order”). The Protective Order provided,
in relevant part, that “[e]xcept as otherwise provided
[therein], information or documents designated as
Confidential by a Party . . . shall not be used or
disclosed by any receiving Parties or their counsel . . .
for any purposes whatsoever other than preparing for
and conducting the litigation in this lawsuit . . . .” Id.
at ¶ 8. However, the Protective Order—which the
parties negotiated months before Ms. Devine became
aware that Plaintiffs had filed a private Swiss
criminal complaint against her7 — further provided
That Ms. Devine was unaware that Plaintiffs had filed a
private Swiss criminal complaint against her—and that she was
unaware of Plaintiffs’ close collaboration with the OAG more
broadly—when she was negotiating the terms of the Protective
Order was made evident by what followed: On February 11,
2016, shortly after she learned of Plaintiffs’ intention to produce
certain documents to the OAG, Ms. Devine filed an emergency
motion for a protective order and a stay of the contemplated
7

68a
that “[n]otwithstanding any provision of this
Protective Order, the Parties may disclose Discovery
Material marked as confidential . . . pursuant to a
request for information from any international . . .
criminal authority.” Id. at ¶ 14 (the “International
Request Clause” or “IRC”).8
The IRC plainly was drafted to provide the
OAG and Plaintiffs with a backdoor to the formal
MLAT process. While the latter requires the
involvement of the DOJ and places restrictions on
the use of any documents produced, the IRC does
neither of those things. Plaintiffs did indeed exploit
the IRC to funnel documents and other information
obtained in this case to the OAG. In fact, the OAG
made the first such request to Plaintiffs on January
13, 2016, without first attempting to obtain the
documents at issue via the U.S. Swiss-MLAT. See
Exhibit I, Jan. 13, 2016 letter from Graziella de Falco
Haldemann to Jean-Marc Carnice.
In its January 13, 2016 letter to Plaintiffs, the
OAG requested an asset listing produced in this case,
a transcript of a hearing conducted before this Court,
and other documents related to the Ex Parte TRO. Id.
production. See Dkt. Entries 248, 305. Had Ms. Devine been
aware of Plaintiffs’ designs from the outset, that emergency
motion practice would not have been necessary.
8 The Protective Order also sets forth limitations on Ms.
Devine’s retention of material designated “Confidential” that
become operative after the instant Action has concluded. Id. at
¶ 18. Ms. Devine seeks relief from that provision in a separate
motion being filed simultaneously herewith.

69a
The OAG letter also requested “documentation in
connection with the transactions set forth on pages
22 to 34 of the criminal complaint”— i.e., the private
Swiss criminal complaint that Ms. Devine later
learned had been filed by Plaintiffs against her. Id.
Plaintiffs used the IRC to funnel back to the OAG not
only
confidential documents and deposition
testimony that Plaintiffs had obtained directly from
Ms. Devine, but also documents produced by thirdparties in response to subpoenas that Plaintiffs had
issued in the U.S. See Exhibit J, Feb. 8, 2016 letter
from Linda Imes to Matthew Lee, at 2 (“In addition,
the Funds plan to produce [to the OAG] certain
documents provided by third parties pursuant to
subpoenas in this action . . . .”). Moreover, certain of
the documents requested by the OAG and produced
by Plaintiffs appear to have been sought for the sole
purpose of attempting to substantiate allegations
made in Plaintiffs’ private Swiss criminal complaint
against Ms. Devine. Had Ms. Devine known that
Plaintiffs had filed a private Swiss criminal
complaint against her even before they commenced
this Action, she would not have assented to the
inclusion of the IRC in the Protective Order.9

While Ms. Devine filed motions with the Court seeking an
order barring Plaintiffs from sharing certain documents with the
OAG, the Court denied those motions, concluding that Ms.
Devine had presented insufficient evidence of unlawful collusion
between Plaintiffs and the OAG. See Dkt. Entry 502 at 36; Dkt.
Entry 535 at 6-7. As set forth more fully below, Ms. Devine has
since obtained substantial new evidence showing that Plaintiffs
and the OAG have colluded improperly. For instance, barely two
weeks after the Court issued an Opinion and Order granting Ms.
9

70a
II.

In the Face of Adverse Rulings, Plaintiffs
Continue to Send U.S. Discovery to the
OAG While Evading Their Own Discovery
Obligations

Starting in early 2017, the Court granted
several of Ms. Devine’s key motions. As Plaintiffs’
legal defeats mounted, they continued to funnel
material to the OAG while stonewalling Ms. Devine’s
legitimate effort to depose one of their own.
A.

After the Court Dismisses All But One of
Their Claims, Plaintiffs Share
Transcripts from U.S. Depositions with
the OAG

Ms. Devine moved to dismiss Plaintiffs’
Amended Complaint and Demand for Jury Trial10 on
Devine’s previously filed motion to dissolve the Ex Parte TRO on
July 25, 2017, Plaintiffs quietly urged the OAG to seize nine
categories of Ms. Devine’s assets, including certain of the assets
that had been encumbered by the Ex Parte TRO. See Dkt. Entry
575; see also Ex. S, August 10, 2017 letter from Jean-Marc
Carnice to Graziella de Falco Haldemann, at 4-5. In their letter
to the OAG requesting that the Swiss re-impose the asset freeze
that this Court had just dissolved, Plaintiffs specifically
requested that the Swiss “avoid . . . communications among the
other parties.” Id. The following month, the OAG did Plaintiffs’
bidding and issued a new, “VERY URGENT” request to the DOJ
requesting that the DOJ seize the very same U.S. assets that
Plaintiffs had identified in their August 10 letter. See Ex. A, at 1.
10 Ms. Devine moved to dismiss Plaintiffs’ initial complaint on
September 29, 2015. See Dkt. Entry 94 (the “First Motion to
Dismiss”). On January 5, 2016, after the First Motion to
Dismiss had been fully briefed (see Dkt. Entries 124, 144, 162),
the Court issued an Opinion and Order requiring Plaintiffs to

71a
February 12, 2016. See Dkt. Entry 252 (the “Second
Motion to Dismiss”). After extensive briefing from the
parties, the Court issued an Opinion and Order on
February 8, 2017, granting in part and denying in
part the Second Motion to Dismiss. See Dkt. Entry
521 (the “Order on the Second Motion to Dismiss”).
In the Order on the Second Motion to Dismiss, the
Court dismissed without prejudice Plaintiffs’ federal
RICO, federal RICO conspiracy, Florida RICO, and
Florida RICO conspiracy claims. Id. at 56, 60. The
Court
dismissed
with
prejudice
Plaintiffs’
constructive trust claim. Id. at 62. Only one claim
survived the Second Motion to Dismiss: Plaintiffs’
unjust enrichment claim. Id. at 63.11

file an amended pleading as a result of filing a pleading with
“shotgun allegations” and denying as moot the First Motion to
Dismiss. See Dkt. Entry 183. Plaintiffs’ 313-paragraph
Amended Complaint contained the same causes of action and
the same operative facts that were included in their initial
complaint. See Dkt. Entry 196.
10 The Order on the Second Motion to Dismiss granted Plaintiffs
twenty-one days to file a Second Amended Complaint. Id. at 635. However, on February 28, 2017, Plaintiffs filed a notice
stating that they had “elected not to file a second amended
complaint.” Dkt. Entry 527 at 2 (the “Notice”). On May 8, 2017,
the Court issued an Order directing Plaintiffs “to file a Second
Amended Complaint including only their remaining state law
claim of unjust enrichment and the factual allegations relating
to that claim.” Dkt. Entry 559 at 2. Though it sets forth just one
cause of action, the ninety-nine-page, 237-paragraph Second
Amended Complaint (the “SAC) that Plaintiffs filed on May 15,
2017 nonetheless includes “factual” allegations every bit as
topically, geographically, and temporally broad as those set
forth in Plaintiffs’ prior pleadings. See Dkt. Entry 560 at ¶¶ 1-7,
32-41.

72a
Just over three months later, on May 10, 2017,
Plaintiffs’ Swiss counsel sent to the OAG—
apparently unsolicited—the transcripts of the
depositions of Brian Escalante, Guillermo Hernandez
Sampere, and Darius Parsi. See Exhibit K, May 10,
2017 letter from Jean-Marc Carnice to Graziella de
Falco Haldemann, at 1-3. All three depositions were
taken in this Action. In the May 10 letter, Plaintiffs’
Swiss counsel described purportedly damaging
portions of each transcript and argued that the
testimony “clearly demonstrate[s] that [Ms. Devine]
knew the criminal origin of Florian Homm’s assets.”
Id. at 3. Plaintiffs’ Swiss counsel concluded the letter
by “respectfully request[ing] that [the OAG] quickly
take [Ms. Devine] into custody.” Id.
B.

As Party Depositions Are Noticed,
Plaintiffs Move for a Protective Order

On May 17, 2017, Plaintiffs noticed the
deposition of Ms. Devine. See Exhibit L, Notice of
Deposition of Defendant Susan Devine. On July 5,
2017, Ms. Devine noticed the depositions of Plaintiff
Absolute East West Fund Limited (“AEWFL”)—just
one of the nine former hedge funds that sued her in
this Action—and Glenn Kennedy, the general counsel
of ACMH Limited. See Exhibit M, Notice of
Videotaped Deposition of AEWFL (the “AEWFL
Notice”) and Exhibit N, Notice of Videotaped
Deposition of Glenn Kennedy.
Ms. Devine complied with the notice that
Plaintiffs served on her and appeared for her

73a
deposition on July 25.12 Plaintiffs, however, were less
forthcoming. Mr. Kennedy did not appear for his
deposition until December 1, 2017, and AEWFL did
not appear at all. Rather, on July 17, 2017, Plaintiffs
moved for a protective order as to the AEWFL Notice,
arguing that it was overbroad and “plainly drafted
both to maximize the burden on the Funds and to
give Devine’s counsel free rein at the deposition.”
Dkt. Entry 567 (“Plaintiffs’ PO Motion”) at 2. On July
18, 2017, the Court canceled the deposition of
AEWFL pending resolution of Plaintiffs’ PO Motion.
See Dkt. Entry 568.
Meanwhile, Plaintiffs produced two expert
reports to Ms. Devine on July 7, 2017. See Exhibit O,
July 7, 2017 letter from David Spears. One of those
reports was prepared by Estera Fund Services (Isle of
Man) Limited. See id.; Exhibit P, excerpted Expert
Report dated June 29, 2017 (the “Estera Report”).
Thereafter, Ms. Devine learned that the Estera
Report was based, in part, on a tracing analysis
performed by Tonya Pinkerton, a forensic accountant
employed by the FBI. See Exhibit Q, January 6, 2017
Affidavit of Tonya Pinkerton with attachment (the
“Pinkerton Affidavit”). Ms. Pinkerton stated in her
affidavit that she prepared the attached tracing
analysis “[i]n response to a request from Switzerland
pursuant to the Mutual Legal Assistance Treaty.” Id.
at 1-2. The DOJ turned over that work product to the
In fact, and to be precise, Ms. Devine submitted to seven hours
and seventeen minutes of questioning notwithstanding that the
Federal Rules require her to submit to only seven hours. Fed. R.
Civ. P. 30(d)(1).
11

74a
OAG, which provided it to Plaintiffs, who in turn
used it to create the Estera Report produced in the
Action.13
On July 19, 2017, Ms. Devine filed a motion to
dismiss Plaintiffs’ SAC. See Dkt. Entry 569 (the
“Third Motion to Dismiss”). In the Third Motion to
Dismiss, Ms. Devine argued, inter alia, that
Plaintiffs’ surviving claim was time-barred and
should never have been brought, was inadequately
pleaded, and was barred by the prohibition against
claim-splitting. See id. passim.
C.

The Court Dissolves the Ex Parte TRO,
Plaintiffs Urge the OAG to Re-Freeze the
Unencumbered Assets, and the OAG
Attempts to Do So

Plaintiffs suffered another serious defeat just a
week later on July 25, 2017, when the Court issued
an Opinion and Order granting Ms. Devine’s
previously filed motion to dissolve the Ex Parte TRO.
See Dkt. Entry 575 (the “Dissolution Order”). 14 In
Plaintiffs eventually funneled the Estera Report back to the
OAG, who cited it in an investigative report that the OAG
published just last month. See Background Section III(E), infra.
14 Ms. Devine moved to Dissolve the Ex Parte TRO on March 6,
2017. See Dkt. Entry 530 (the “Motion to Dissolve”). In the
Dissolution Order, the Court held, inter alia, that “Florida law
does not allow for preliminary injunctive relief” where the only
cause of action brought is for common law unjust enrichment
(id. at 11), that the Funds could have sought to employ a
Florida prejudgment garnishment statute and its procedures for
the restraint of assets prejudgment but failed to do so (id. at 1112), that under Florida law, “unjust enrichment is an action at
13

75a
response, Plaintiffs inundated this Court and Ms.
Devine with a slew of filings.
The following day, Plaintiffs filed a notice of
appeal regarding the Dissolution Order (see Dkt.
Entry 576), and an emergency motion for a stay of
the Dissolution Order. See Dkt. Entry 577 (the “Stay
Motion”). In the Stay Motion, Plaintiffs argued, inter
alia, that “they are likely to succeed on the appeal of
the [Dissolution] Order.” Id. at 3. Ms. Devine filed a
response in opposition to the Stay Motion on August
9, 2017. See Dkt. Entry 596.
Plaintiffs also petitioned the Court of Appeals
for a stay, filing an emergency motion with the
Eleventh Circuit on July 28, 2017. See Appellants’
Emergency Motion to Stay District Court’s Order
Pending Appeal, Absolute Activist Value Master Fund
Limited, et al. v. Devine, No. 17-13364 (11th Cir.
dismissed Feb. 20, 2018) (the “Appellate Stay
Motion”). In the Appellate Stay Motion, Plaintiffs
again argued that they “are likely to succeed on their
appeal of the [Dissolution] Order.” Id. at 11. Ms.
Devine filed a response in opposition to the Appellate
Stay Motion on August 2, 2017. See Exhibit R,
Appellees’ Response in Opposition to Appellants’
law” (id. at 14), and that “[d]espite the equitable titles affixed to
the relief requested, plaintiffs are essentially seeking one thing
– money.” Id. at 15. The Court further concluded that “[d]ue to
the commingling of [the] funds” at issue and “the admitted
difficulty in tracing the assets,” there was not a “substantial
likelihood that plaintiffs will be able to ultimately establish
their entitlement to the imposition of a constructive trust” over
Ms. Devine’s assets. Id. at 17-18 (footnote omitted).

76a
Emergency Motion to Stay District Court’s Order
Pending Appeal.
Even as Plaintiffs assured both this Court and
the Eleventh Circuit that they were likely to succeed
on their appeal, Plaintiffs quietly urged the OAG to
ask the U.S. to seize nine categories of Ms. Devine’s
assets. See Exhibit S, August 10, 2017 letter from
Jean-Marc Carnice to Graziella de Falco Haldemann,
at 4-5. Those assets included property that had been
encumbered by the since-dissolved Ex Parte TRO,
such as Ms. Devine’s home in Naples, Florida and
certain of her U.S. bank accounts. Id.
On August 30, 2017, Plaintiffs wrote again to
the OAG to urge it to “take[ Ms. Devine] into
custody.” See Exhibit T, August 30, 2017 letter from
Jean-Marc Carnice to Graziella de Falco Haldemann,
at 4. In their August 30 letter to the OAG, Plaintiffs
cited the deposition testimony of Mr. Sampere—
testimony that Plaintiffs obtained in this Action and
shared with the OAG apparently unprompted—as
purported proof of Ms. Devine’s alleged misconduct.
Id. at 1-2.
Just two weeks later, the OAG followed
Plaintiffs’ lead and issued a new, “VERY URGENT”
request to the DOJ pursuant to the U.S.-Swiss MLAT
on September 14, 2017. See Ex. A, at 1. In the
September 14 letter, the OAG requested that the
DOJ seize the very same U.S. assets that Plaintiffs
had identified in their August 10 letter—Ms.
Devine’s home in Naples, Florida and her accounts at
certain U.S. Banks. Id. at 6.

77a
D.

The Parties Brief Plaintiffs’ Appeal and
the Stay Motions Are Denied

On September 5, 2017, Plaintiffs filed their
opening brief with the Court of Appeals. See Brief for
Plaintiffs-Appellants, Absolute Activist Value Master
Fund Limited, et al. v. Devine, No. 17-13364 (11th
Cir. dismissed Feb. 20, 2018). Ms. Devine filed her
appellate brief on October 19, 2017. See Brief for
Defendant-Appellee, Absolute Activist Value Master
Fund Limited, et al. v. Devine, No. 17-13364 (11th
Cir. dismissed Feb. 20, 2018). Plaintiffs filed their
reply brief on November 16, 2017. See Reply Brief for
Plaintiffs-Appellants, Absolute Activist Value Master
Fund Limited, et al. v. Devine, No. 17-3364 (11th Cir.
dismissed Feb. 20, 2018).
Just one day later, on November 17, 2017, this
Court issued an Opinion and Order denying
Plaintiffs’ Stay Motion. See Dkt. Entry 675. 15 The
Court of Appeals followed suit on December 28, 2017,
when it issued an Order denying the Appellate Stay
Motion. Absolute Activist Value Master Fund
Limited, et al. v. Devine, No. 17-13364 (11th Cir. Dec.

In the Stay Motion, Plaintiffs requested both a stay pending
appeal and a stay pending the Court’s decision on Plaintiffs’
request for a stay pending appeal. See Stay Motion at 1-2. On
July 26, 2017, this Court issued an Order denying the Stay
Motion in part, rejecting Plaintiffs’ request for a stay pending
the Court’s decision on Plaintiffs’ request for a stay pending
appeal. See Dkt. Entry 582 at 3. This Court’s November 17,
2017 decision denied the remainder of the Stay Motion.
15

78a
28, 2017). 16 As a result, the assets that had been
restrained by the Ex Parte TRO were fully
unencumbered as of December 28, 2017.
III.

Plaintiffs Refuse to Be Deposed, and
Ultimately Abandon the Action After the
Court Orders Them to Testify

After the denial of their stay motions,
Plaintiffs’ dilatory and abusive litigation tactics grew
more brazen. Without moving for a protective order,
Plaintiffs simply refused to attend the additional
party depositions that Ms. Devine noticed. When the
Court ordered Plaintiffs to submit to depositions,
they instead dismissed their remaining claim.
A.

Ms. Devine’s Notices Directed to
AAVMFL, AGFL, and AIFL

On January 3, 2018, while Plaintiffs’ motion
challenging the AEWFL Notice was pending, Ms.
Devine served notices of deposition on three other
Plaintiff funds: Absolute Activist Value Master Fund
Limited (“AAVMFL”), Absolute Germany Fund
Limited (“AGFL”), and Absolute India Fund Limited
The Court of Appeals issued a temporary stay of the
Dissolution Order on July 28, 2017. Absolute Activist Value
Master Fund Limited, et al. v. Devine, No. 17-13364 (11th Cir.
July 28, 2017). On October 3, 2017, the Court of Appeals continued
the temporary stay of the Dissolution Order pending this Court’s ruling on
the Stay Motion. Absolute Activist Value Master Fund Limited, et al. v.
Devine, No. 17-13364 (11th Cir. Oct. 3, 2017). The December 28, 2017
Order issued by the Court of Appeals explicitly lifted that temporary stay
and denied the Appellate Stay Motion. Absolute Activist Value Master
Fund Limited, et al. v. Devine, No. 17-13364 (11th Cir. Dec. 28, 2017).
16

79a
(“AIFL,” and collectively, the “January Notices,”
attached hereto as Exhibit U). The January Notices,
which scheduled the noticed depositions for January
24, 25, and 26, 2018, respectively, were narrower in
their scope than the AEWFL Notice.17
B.

Plaintiffs’ Response to the January
Notices and Bad-Faith Refusal to Attend
the Noticed Depositions

On January 4, 2018, Plaintiffs’ counsel
responded to the January Notices via email.
Plaintiffs’ counsel’s response read as follows:
We object to your notices of deposition,
which are patently improper. They are
overreaching and unduly burdensome
in many of the same ways as your July
5, 2017 notice of Absolute East West
Fund
Limited’s
deposition,
a
deposition the Court canceled pending
its ruling on the Funds’ motion for a
protective order. The notices are also
improper for other reasons that we
won’t go into here. No witness will
appear.
See Exhibit V, Jan. 4, 2018 email from David Spears
to Nathan Huddell (emphasis added).
Though Ms. Devine considered that reduction in scope
unnecessary, she nonetheless reduced the topical breadth of the
January Notices as an accommodation to Plaintiffs and in hopes
of obtaining deposition testimony from at least one of the
Plaintiffs without resort to motion practice.
17

80a
Ms. Devine’s counsel responded to the email
from Plaintiffs’ counsel on January 8, 2018. See
Exhibit W, Jan. 8, 2018 email from Matthew Lee to
David Spears. In their response, co-counsel to Ms.
Devine contested Plaintiffs’ assertions about the
propriety of the January Notices and communicated
their “willing[ness] to engage in good faith
discussions regarding the January Notices.” Id.
On January 18, 2018, counsel to Ms. Devine
conferred with Plaintiffs’ counsel telephonically
regarding the January Notices. The parties were not
able to resolve their disagreements during that
conference. In a subsequent email to Ms. Devine’s
counsel, Plaintiffs’ counsel argued again that the
January Notices “are in large part substantively
identical to” the AEWFL Notice and asserted that
until the Court rules on Plaintiffs’ motion for a
protective order as to the AEWFL Notice, “there is no
reasonable justification for noticing additional
depositions that cover nearly identical topics.” See
Exhibit X, Jan. 18, 2018 email form Christopher
Dysard to Matthew Lee. Plaintiffs’ counsel also
stated in his email that no witness would appear at
the noticed depositions of AAVMFL, AGFL, and
AIFL. Id. Plaintiffs never moved for a protective
order regarding any of the January Notices.
On January 23, 2018, co-counsel to Ms. Devine
flew to Fort Myers, Florida for the noticed
depositions of AAVMFL, AGFL, and AIFL. On
January 24, 2018, co-counsel for Ms. Devine
appeared at the noticed deposition of AAVMFL in

81a
Fort Myers. See Exhibit Y, Jan. 24, 2018 Record
Statement by Counsel, at 3:3-12. Neither a witness
nor Plaintiffs’ counsel appeared. Id. at 3:13-20.
Witnesses for AGFL and AIFL, along with Plaintiffs’
counsel, likewise failed to appear at the depositions
scheduled for January 25 and January 26. See
Exhibit
Z,
Jan.
25,
2018
Certificate
of
Nonappearance, and Exhibit AA, Jan. 26, 2018
Certificate of Nonappearance.
C.

The Court Rejects Nearly All of Plaintiffs’
Challenges to Ms. Devine’s Deposition
Notice

On February 7, 2018, the Court issued an
Order granting in part and denying in part Plaintiffs’
PO Motion. (Dkt. Entry 679) (the “Deposition
Order”). In the Deposition Order, the Court rejected
Plaintiffs’ argument that the AEWFL Notice was
improper insofar as it is “duplicative of Defendant’s
previously served document requests.” Id. at 4-5.
Rather, the Court concluded, “it is not surprising in
the least that a Rule 30(b)(6) deposition notice would
refer to or align in some fashion with previously
propounded document discovery.” Id. at 5. The Court
also rejected nearly all of Plaintiffs’ other objections.
Id. passim. In fact, as to the “more than 120” topics
and subtopics listed in the AEWFL Notice (id. at 2),
the Court sustained Plaintiffs’ objections as to only
five. 18 The Deposition Order directed AEWFL to
Plaintiffs’ argument that “Topics 1, 3-4, 13-14, 18-19, 26, 29,
32-35, 44, 49-50, and 54” in the AEWFL Notice were improper
to the extent that they include the phrase “including, but not
18

82a
designate, by February 21, 2018, one or more persons
to testify as to each of the permitted topics and to
complete the deposition of AEWFL within thirty
days. Id. at 17.
D.

Faced with the Court’s Order, Plaintiffs
Abandon Their Remaining Claim and
Their Appeal and Flee the Middle District

As of the date on which the Court issued the
Deposition Order, not even one of the Plaintiff funds
limited to,” was rejected. Id. at 6. Similarly, the Court rejected
Plaintiffs’ argument that “Topics 5-6, 15, 20-23, 25, 36-37, 40,
44-48, 52, 5556, and 58” were improper insofar as they lack
“reasonable substantive limitations.” Id. at 8. The Court also
rejected Plaintiffs’ argument that Topics 1, 3-4, 6-10, 16-18, 28,
32, 38, 41-43, and 59 in the AEWFL Notice were improper in 17
that they “seek[] irrelevant information.” Id. at 9-10.
Additionally, the Court rejected Plaintiffs’ arguments based on,
inter alia, (a) the “temporal scope” of the topics at issue (id. at
11), (b) Plaintiffs’ characterization of the relevant topics as
“discovery on discovery” (id. at 13), (c) the attorney-client
privilege and the work product doctrine (id. at 14-15), (d)
Plaintiffs’ assertion that the relevant topics “are better suited
for expert discovery” (id. at 16), and (e) Plaintiffs’ claim that the
relevant
topic
encompassed
“confidential
settlement
information.” Id. at 16-17. Although the Court also concluded
that “Topic 2, as currently written, failed to describe the
matters for examination with reasonable particularity as
required by Fed. R. Civ. P. 30(b)(6),” the Court also found “that
subparts 2(a) through 2(qq) are sufficiently particularized” and
on that basis “reasonably interpret[ed] and modif[ied] Topic 2 as
seeking testimony only as to the allegations specified in
subparts 2(a) through 2(qq)” and permitted Ms. Devine to
depose AEWFL “as to the allegations of the Second Amended
Complaint that are referenced or quoted in subparts 2(a)
through 2(qq) of the” AEWFL Notice. Id. at 7-8.

83a
had testified on the record in this Action. Faced with
the prospect of being forced—finally—to make good
on their obligation to be deposed, Plaintiffs instead
opted to abandon their case, and on February 14,
2018, filed with the Court a Notice of Voluntary
Dismissal, without Prejudice, Pursuant to Rule
41(a)(1)(A)(i). See Dkt. Entry 680. On February 21,
2018, the Court issued an Order dismissing this
Action without prejudice. See Dkt. Entry 682.
Plaintiffs likewise moved to dismiss their
appeal—the same appeal that they had claimed they
were likely to win just a few months prior—and filed
a motion to that effect with the Court of Appeals on
February 14, 2018. See Appellants’ Motion for
Voluntary Dismissal of Appeal, Absolute Activist
Value Master Fund Limited, et al. v. Devine, No. 1713364 (11th Cir. dismissed Feb. 20, 2018). The
Eleventh Circuit dismissed Plaintiffs’ pending appeal
on February 20, 2018. Absolute Activist Value Master
Fund Limited, et al. v. Devine, No. 17-13364 (11th
Cir. July 28, 2017).
In short, after more than two-and-a-half years
of litigation but just weeks before they were to be
deposed for the first time, Plaintiffs voluntarily
dismissed their sole surviving cause of action and
walked away.
E.

The OAG Continues to Rely on U.S.
Discovery That Plaintiffs Obtained in
This Action

84a
Despite Plaintiffs’ withdrawal from this case,
the OAG has continued to rely on U.S. discovery that
Plaintiffs obtained in this Action and funneled
abroad. For instance, on March 16, 2018, the OAG
published a 281-page report that purports to describe
the “fraud” perpetrated by Florian Homm. See
Exhibit BB, Rapport FFA Stratagéme de fraude
reproché à Florian HOMM et ses repercussions
(selected translated and untranslated excerpts). The
March 16, 2018 report includes numerous references
to the Estera Report and to Ms. Devine and cites, at
length, the transcript of the U.S. deposition of Mr.
Sampere. Id. passim.
ARGUMENT
I.

The Court Should Enter Judgment in
Favor of Ms. Devine on Plaintiffs’
Constructive Trust, Federal RICO,
Federal RICO Conspiracy, Florida RICO,
and Florida RICO Conspiracy Claims

In the Order on the Second Motion to Dismiss,
the Court dismissed with prejudice Plaintiffs’ claim
for “constructive trust” (the “Constructive Trust
Claim”). Dkt. Entry 521 at 65. In the same Order, the
Court dismissed without prejudice Plaintiffs’ claims
for violations of 18 U.S.C. § 1962(c) (the “Federal
RICO Claim”); violations of 18 U.S.C. § 1962(d) (the
“Federal RICO Conspiracy Claim”); violations of Fla.
Stats. §§ 772.103(3) and 895.03(3) (the “Florida RICO
Claim”); and violations of Fla. Stats. §§ 772.103(4)
and 895.03(4) (the “Florida RICO Conspiracy Claim”)
(collectively with the Federal RICO Claim, the

85a
Federal RICO Conspiracy Claim, and the Florida
RICO Claim, the “RICO Claims”). Id. Ms. Devine

